<html>
<title> - FOREIGN OWNERSHIP:</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                           FOREIGN OWNERSHIP:

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON TRANSPORTATION
                      SECURITY AND INFRASTRUCTURE
                               PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 23, 2007

                               __________

                           Serial No. 110-21

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                   U.S. GOVERNMENT PRINTING OFFICE
43-557 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 SHEILA JACKSON LEE, Texas, Chairwoman

EDWARD J. MARKEY, Massachusetts      DANIEL E. LUNGREN, California
PETER A. DeFAZIO, Oregon             GINNY BROWN-WAITE, Florida
ELEANOR HOLMES NORTON, District of   MARSHA BLACKBURN, Tennessee
Columbia                             GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York           PETER T. KING, New York (Ex 
ED PERLMUTTER, Colorado              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                 D. Michael Stroud, Director & Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Chairman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State California, and Ranking Member, Subcommittee on 
  transportation Security and Infrastructure Protection..........     3
The Honorable Gus Bilirakis, a Representative in Congress from 
  the State of Florida...........................................    29
The Honorable Yvette D. Clarke, a Representative in Congress from 
  the State of New York..........................................    27
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    30

                               Witnesses

The Honorable Stewart A. Baker, Assistant Secretary for Policy, 
  Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................    10
Ms. Ann Calvaresi Barr, Director of Acquisition and Sourcing, 
  Management Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
The Honorable Gregory Garcia, Assistant Secretary for 
  Cybersecurity and Telecommunications Department of Homeland 
  Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    14
Colonel Robert B. Stephan, Assistant Secretary for Infrastructure 
  Protection, Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    13


 DISCUSSION OF CHALLENGES POSED BY FOREIGN OWNERSHIP TO USING CRITICAL 
                             INFRASTRUCTURE

                              ----------                              


                         Friday, March 23, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, DeFazio, Norton, 
Clarke, Lungren, and Bilirakis.
    Ms. Jackson Lee. [Presiding.] Good morning. The 
subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
challenges posed by foreign ownership to using critical 
infrastructure and how the Department of Homeland Security is 
working to protect critical infrastructure.
    The chair wants to acknowledge the presence of the ranking 
member, Mr. Lungren of California, wants to acknowledge the 
presence of Ms. Clarke of Brooklyn, New York, and the presence 
of Mr. DeFazio of Oregon.
    I have often indicated that, as I have served on this 
committee, the Homeland Security Committee, and seen a number 
of individuals who come before us with the responsibility of 
securing the homeland, that we live in a new climate and a new 
era after 9/11. In fact, this committee and the department was 
not a fixture of government prior to 9/11.
    That poses an enormously heavy burden and responsibility, 
one that I believe all of us accept. But what it does say is 
that unlike our committees of jurisdiction, that if a tragic 
and horrific act were to occur again, that America would look 
to all of us.
    I believe Chairman Thompson, and certainly I agree with him 
and will continue to work with that mission and message that we 
have to be continuously subjective and objective in looking at 
the responsibilities of the elements that make us secure.
    Critical infrastructure, in this instance, has a vast 
landscape and this committee is committed to reviewing the 
aspects of critical infrastructures in the United States and as 
relates internationally, as it may impact on the securing of 
America.
    I would then like to take the opportunity to thank all of 
us and all of you for joining us this morning so that we can 
begin our exploration of the topic of foreign ownership and how 
it intersects with national security.
    A little over a year ago, Congress united to oppose the 
administration's failure to conduct an adequate oversight when 
there was a proposal by Dubai Port World to enter into a deal 
that would have put Dubai Port in charge of managing many of 
our USC ports.
    The issue became a particular concern not because Dubai 
Ports was a foreign company, but because it was one that was 
controlled by a foreign government.
    Needless to say, I believe most members will say to you 
that we understand internationalism and trade and opportunity 
and exchange, but it is important for all sovereign governments 
to protect the people which they have responsibility for.
    On the heels of September 11, this deal raised well-
deserved skepticism of how the United States monitors and 
evaluates foreign ownership of our critical infrastructure. 
Today, more than a year later, we continue to monitor this 
issue closely by holding this hearing and others that will 
explore the Department of Homeland Security's involvement with 
the Committee on Foreign Investment in the United States, 
CFIUS, as some would call it.
    Before 9/11, the process was not a strong focus of many 
Americans. As we know, this country relies on foreign 
investment. As a recent Congressional Research Service 
publication indicates, foreign investment in the United States 
could top $160 billion for 2006. Thus, while foreign investment 
is a great resource and indicator of our strength in the global 
economy, we must be vigilant that we do not compromise 
security.
    After 9/11, our outlook on foreign investment and 
especially ownership of critical infrastructure changed. 
Americans, including myself, began to wonder who is watching 
foreign investment is being made in the United States, where is 
it being made, and how vigilant are we being in making sure 
that the elements that they may possess that relate to 
America's security are, in fact, protected.
    There are many more questions that we might ask. One of 
them being the process that is used by CFIUS whether or not, 
even with the presence of the secretary of homeland security on 
the committee and involved in the process, what strictures have 
we put in place, what regulations, what directions have we put 
in place to ensure that we are an active participant in 
protecting America.
    I, like most Americans, wholeheartedly support capitalism 
and, of course, a balanced trade process. Yet, as events have 
shown, we need to pursue a vigorous oversight agenda, 
especially in the area of foreign investment in critical 
infrastructure.
    Dubai Ports told us that we need not just focus on in one 
area of infrastructure, but we need to focus on all areas.
    As the chairwoman of this subcommittee, which bears the 
term infrastructure protection in its title, I intend to do 
just that--evaluate how infrastructure is being protected to 
ensure its viability here and that it is available when America 
needs it most, but that it is available by being safe and 
secure.
    As we all know, terrorists don't signal or call ahead 
before they attack. We saw this in Madrid and London, amongst 
other horrible incidents. Terrorists are creative, especially 
in the ways in which they will attack us.
    It is not inconceivable that a terrorist might try and 
attack us with brute force, but simply by pressing a computer 
button or by crippling a key asset.
    It is with this notion that I, along with other members of 
this subcommittee, am seriously committed to protecting 
critical infrastructure and understanding how the 
administration is protecting our vital assets.
    One example of how serious we are in taking this role on in 
this committee is by supporting H.R. 556, Committee on Foreign 
Investment in the U.S. reform bill. This bill provides needed 
reform for formalizing and streamlining the structure and 
duties of the Committee on Foreign Investment in the United 
States.
    I am happy to say that I voted to support this bill, along 
with more than 400 of my colleagues on both sides of the aisle.
    And this bill addresses many of the concerns raised about 
CFIUS, especially its current lack of transparency and 
oversight and congressional reporting and accountability.
    This bill adds much clarity to a relatively murky process. 
This bill rectifies concerns from the business community by 
formally establishing the membership and timelines as to how 
and when this review would take place.
    According to CRS's analysis of H.R. 556, the bill increases 
the role of congressional oversight by requiring a reporting 
process on its actions and allowing for a greater amount of 
detailed information about CFIUS's operations.
    But there may be more that we need to do and I believe that 
there may be legislative need that further enhances our 
oversight over foreign investment and ownership.
    Today we want to continue to explore the role that the 
Department of Homeland Security has with this new process and 
how it is accomplishing its goal of overall infrastructure 
protection.
    I look forward to the witnesses' testimony and learning 
about the process and the department's role that can be 
fortified, while protecting the United States' interests in 
international commerce.
    It is my pleasure to yield 5 minutes to the distinguished 
ranking member from California, Mr. Lungren.
    Mr. Lungren. Thank you very much. I thank the chairwoman of 
our subcommittee.
    And I welcome our guests here who are to speak to us, and I 
welcome the opportunity to discuss foreign ownership and the 
challenges it presents for our critical infrastructure.
    This Homeland Security Committee is all too familiar with 
the concerns and fears that foreign ownership of U.S. critical 
infrastructure assets creates in our citizens.
    The purchase last year of the operating rights at six U.S. 
ports, including the ports of New York, New Jersey and 
Baltimore, by Dubai Ports World Company created a firestorm of 
public and congressional opposition.
    It also focused attention on the governmental process 
established to review such sales and determine whether it 
creates a threat to our economic or national security.
    This process of reviewing foreign purchases is done by the 
now known Committee for Financial Investment in the U.S., or 
CFIUS.
    In 1988, I believe in one of the last things I did as a 
member of Congress during my first tour of service here, 
Congress passed the Exxon-Florio provision amid growing 
concerns over foreign acquisition of American businesses.
    This provision gave the president the authority to block 
proposed foreign acquisitions that were deemed to threaten our 
national security.
    Foreign acquisition of U.S. companies and assets pose a 
particular challenge to our government. It creates a delicate 
balancing act in the worldwide economy.
    How do we attract vital foreign investment to the United 
States without sacrificing or diminishing our national 
security? One of the first questions we have is, what is 
critical infrastructure? Infrastructure in this country is 
owned, depending on whose figures you look at, 85 to 90 percent 
in the private sector, not in the public sector.
    So how do we do that? I believe we have the proper 
procedures to protect our critical infrastructure and assets by 
requiring foreign acquisitions to be closely reviewed and 
scrutinized by CFIUS.
    For over 30 years, this process has worked effectively, 
guarding our capital markets, our highly valued infrastructure 
assets, and, most importantly, our national security.
    Most of the time, it doesn't gain any headlines and that 
was a conscious decision made by the Congress when it set up 
CFIUS. We did not want to do something that overreached such 
that we denied ourselves the kind of foreign investment that 
actually proved to be beneficial to this country. So we set up 
a process which, by and large, would oftentimes not gain any 
headlines or public comment.
    The problem that occurred last year, however, was there was 
an area that probably needed some public comment or at least 
needed to be brought to the attention of the president of the 
United States and perhaps even to the attention of the Congress 
before it was made public.
    In the years that we have had this law, on only one 
occasion, in 1990, did the president intervene and order 
divestiture by a Chinese aerospace company of a U.S. aircraft 
parts manufacturer. Last year's debate on the Dubai purchase 
raised a number of problems with the CFIUS review process and 
it demonstrated that changes needed to be made in light of 9/11 
and our nation's growing terrorist threat.
    Important improvements were included in the legislation we 
passed last year, H.R. 5337, and, again, in February of this 
year, H.R. 556, referred to by the chairwoman of this 
committee, and it did pass by an overwhelming vote of 423-0.
    The legislation elevated the secretaries of homeland 
security and commerce to vice chairs of CFIUS, and I believe it 
will help address concerns about CFIUS applying too narrow a 
definition of a national security threat, which was a criticism 
of past reviews. The legislation also limits delegating these 
important CFIUS decisions.
    I believe the hearing and future hearings will also look 
into how the Offices of Infrastructure Protection and 
Cybersecurity and Telecommunications work together to protect 
key resources, especially as it relates to the CFIUS process.
    I would just once again like to say publicly that I 
appreciate the cooperation and quick response of DHS to a 
critical vulnerability involving cyber and critical 
infrastructure uncovered by the private sector, the dispatch 
with which they dealt with that, the cooperation they showed 
with this committee, and I look forward to future briefings, 
particularly of a classified nature, on the success of that 
overall effort.
    And with that, I would yield back the balance of my time 
and thank the gentlewoman for giving me the time.
    Ms. Jackson Lee. I thank the distinguished ranking member, 
Mr. Lungren from California, for his statement.
    And I would remind other members of the subcommittee that, 
under the committee rules, opening statements may be submitted 
for the record.
    I welcome all of the panel members this morning and believe 
that your presence here this morning emphasizes a journey that 
we will take to expand our oversight over critical 
infrastructure.
    Our goal is to not only reach a point where we believe that 
we have explored aspects that could be conceived that might 
harm the United States, but also that we are helping to provide 
a necessary instructional direction to be able to help to 
secure these facilities.
    Our first witness, Mr. Stuart Baker, who I know has great 
insight on this issue, is the assistant secretary for policy at 
the Department of Homeland Security. Prior to joining the 
department, Mr. Baker was general counsel of the commission on 
the intelligence capabilities of the United States regarding 
weapons of mass destruction. And prior to this, he was the 
general counsel for the National Security Agency.
    Welcome, Secretary Baker, and we thank you for your 
service. We look forward to hearing your testimony.
    Our second witness, Colonel Robert Stephan, is the 
assistant secretary for the Office of Infrastructure Protection 
with the Department of Homeland Security and was most recently 
in Houston, Texas.
    And I applaud him for that, not only for being in Houston 
but for also reaching out to constituencies and cities and 
counties and states in order to get firsthand knowledge. And I 
think that is extremely important.
    Prior to joining the department in 2005, Colonel Stephan 
was a senior director for critical infrastructure protection in 
the executive office of the president. Colonel Stephan had a 
distinguished 24-year career in the United States Air Force.
    Welcome, Colonel, and we are happy to have you here, and we 
thank you for your military service to our country.
    Our third witness is Mr. Gregory Garcia. We have had the 
opportunity to hear the insight of Mr. Garcia previously, and 
we thank him for his insight. He is the assistant secretary for 
the Office of Cybersecurity and Telecommunications with the 
Department of Homeland Security. Prior to joining the 
department, Mr. Garcia was the vice president for information 
security programs and policy with the Information Technology 
Association of America.
    Giving him a balance of both private and public sector, 
before joining the association, Mr. Garcia worked with the 
House of Representatives Science Committee, certainly a 
committee that I have affection for and, as well, a 
longstanding relationship.
    Thank you for coming today. We look forward to your 
testimony, and we thank you for your service.
    Our final witness, Ms. Ann Calvaresi-Barr, is the director 
for acquisition and sourcing management at the United States 
Government Accountability Office. Ms. Calvaresi-Barr has been 
with the GAO for 23 years and is responsible for reporting and 
testifying before Congress on issues impacting foreign 
investment, amongst other topics.
    We are always appreciative of the objectivity that GAO 
provides us. We will continue to access the resources, and we 
hope that you will assist us as we delve into determining how 
much more work we need to do to secure the homeland as it 
relates to critical infrastructure.
    Thank you for being here today. We look forward to your 
testimony.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Assistant Secretary Baker.

  STATEMENT OF HON. STEWART A. BAKER, ASSISTANT SECRETARY FOR 
            POLICY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Baker. Madam Chairwoman, thank you very much. Ranking 
Member Lungren, members of the committee, it is a pleasure to 
be here.
    I am very proud of the work that DHS has done in CFIUS. It 
is the youngest member of CFIUS and I think it is widely 
recognized as among the most creative users of CFIUS--we are 
creative because we have to be, because the definition of 
homeland security requires that we think of a wide variety of 
risks that other agencies do not have to be concerned with--and 
as the most thorough member of CFIUS, in many respects, which I 
will get into.
    CFIUS has been around, as the ranking member suggested, for 
quite some time. It was actually started under an executive 
order even before the Exxon-Florio Act. We, of course, did not 
arrive until we were created as a department, but we joined an 
existing structure that set up a committee of now six 
departments and a variety of executive agencies, chaired by the 
Treasury Department.
    Our authority is essentially the authority to recommend the 
president blocking an investment in the United States because 
of the threat to national security.
    In order to determine whether to make a recommendation to 
block a transaction, we have to do an investigation of our own. 
The investigation is supposed to last only 30 days. Everyone 
recognizes that these transactions have short shelf lives and 
need to be moved forward quickly.
    So we have to jump on transactions. It is like being a 
fireman. As soon as you hear the alarm, you just jump into your 
boots and get on the pole and go to the fire. And we are doing 
that more than we have done in years. Filings have gone from 
about 40 or 50 a few years ago to being on a pace for almost 
150 this year.
    And we try to handle all those transactions in less than 30 
days, if we can. If we can't, if we conclude we need more time, 
we can ask for more time and we can extend the investigation to 
45 more days or ask the parties to withdraw and give us even 
more time before we have to make a decision.
    What do we do in those days? From DHS's point of view, we 
ask a couple of fundamental questions.
    First, what is the vulnerability? If this transaction 
occurred and the parties who are part of the transaction, who 
are making the acquisition intended to do us harm or some of 
them did, how much harm could they do with this acquisition? 
That is the first question we ask.
    The second question we ask, not surprisingly, is do we have 
any reason to believe that the people who are engaged in this 
transaction, the company that is engaged in this transaction or 
the government that stands behind that company might wish to do 
any of those harmful acts.
    So we look, first, at our vulnerability and then at the 
threat.
    Once we have carried out that analysis, we have to decide, 
are we opposed to the transaction or are there risks here that 
could be minimized by changes in the practice of the company or 
by guarantees that the company wouldn't change its practice?
    We often will ask companies for assurances that they are 
going to act in certain ways. These are called mitigation 
agreements, in which we mitigate the risk to national security.
    We have been among the most active in seeking those 
agreements. All agreement with CFIUS in the form of mitigation 
agreements have increased. I think we entered into 13 during 
the first 3 years of our existence and last year we did 15 in 1 
year alone.
    Those mitigations and agreements have turned out to be 
quite useful and important to us. One of the things that we 
have also pioneered is going back and checking to make sure 
that the companies are carrying out their agreements.
    There is nothing that concentrates people's mind so much as 
knowing that they are going to be audited on their performance 
and we have been active in auditing companies to make sure that 
they actually carry out their agreements.
    This is something GAO noticed 2 years ago when they did the 
report on us. We have since established a formal unit that does 
nothing but audits, the first in government.
    We are very proud of that record, and I am glad to answer 
questions about when the remainder of the witnesses have made 
their presentations.
    Ms. Jackson Lee. Thank you for your insightful and 
instructive testimony.
    I now recognize Assistant Secretary Stephan to summarize 
his statement for 5 minutes.
    Colonel, thank you very much.

 STATEMENT OF COLONEL ROBERT STEPHAN, ASSISTANT SECRETARY FOR 
            POLICY, DEPARTMENT OF HOMELAND SECURITY

    Colonel Stephan. Madam Chairwoman, Ranking Member Lungren, 
other distinguished members of this subcommittee, thank you 
very much for the opportunity to speak to you today on behalf 
of my office, the office of infrastructure protection, to 
discuss our role in the CFIUS process in support of Assistant 
Secretary Baker.
    Within the office of infrastructure protection at DHS, we 
carefully monitor and analyze the risk posed to the nation's 
infrastructure. Part of this analysis includes an assessment of 
foreign ownership, control and influence over our most 
significant critical infrastructures on a transaction-by-
transaction basis.
    Responsibility for this analysis rests jointly with the 
department's homeland infrastructure threat and risk analysis 
center, which is a combination of the office of infrastructure 
protection, with further outreach to other federal departments 
and agencies and other key players inside the department, as 
well as the office of intelligence and analysis.
    HITRAC, as it is commonly known, develops tailored 
infrastructure-related threat and risk analysis products and 
monitors the changes to the threats, the vulnerabilities and 
the consequences associated with the nation's infrastructure 
that could affect the national risk profile.
    Significant changes in the national risk profile will, in 
turn, drive changes in our operational focus, security plans 
and programs.
    The HITRAC organization helps set the priorities for our 
collective infrastructure protection efforts from an analytical 
perspective. HITRAC also provides focused analytical support 
directly to the office of policy as part of the department's 
overarching role in the CFIUS process.
    Although the policy office has overall responsibility for 
the department's CFIUS-related review process and for making 
recommendations to the secretary on how to approach each case, 
the dedicated staff in HITRAC support departmental decision-
making by preparing risk assessments of every single filing for 
transactions and are provided directly to the office of policy.
    These assessments, prepared by a specialized CFIUS support 
team of infrastructure and intelligence analysts within HITRAC, 
provide our policy decision-makers within the department an 
understanding of how these various potential acquisitions can 
impact, in a cascading manner, U.S. infrastructure.
    HITRAC analysts conduct detailed reviews of all classified 
and unclassified information related to the foreign company of 
concern and subsidiaries involved in the transaction and look 
for indications that the foreign company and its senior 
personnel may have ties that could pose a threat to U.S. 
security, including ties with other foreign governments, 
foreign intelligence services, organized crime syndicates, or 
international terrorist organizations.
    This research and analysis is supported by our law 
enforcement partners within DHS, such as ICE and CDP, as well 
as outside of the department, such as the FBI and others.
    An assessment of the threat posed by foreign investors or 
owners, however, is only part of HITRAC's analytical 
capability. HITRAC's CFIUS analysts work with subject matter 
experts in the infrastructure sector affected by a transaction 
to analyze the vulnerabilities associated within the U.S. 
infrastructure that the transaction may expose.
    Obviously, situations in which the potential 
vulnerabilities can be exploited by identified threats raise 
significant concerns.
    HITRAC then coordinates its analysis with relevant federal 
sector-specific agencies, such as the DHS Office of 
Cybersecurity and Telecommunications, the Transportation 
Security Administration, the U.S. Coast Guard, the Department 
of Energy, the Department of Defense, and various others.
    The final risk assessment product informs the office of 
policy's recommendation to the secretary by highlighting areas 
of concern and increased risk and by proposing potential 
mitigation strategies the department may use to manage risk 
posed by the transaction.
    Under the DHS chief intelligence officer, Charlie Allen's 
leadership, HITRAC's assessments also inform the director of 
national intelligence's reviews of each CFIUS case in 
collaboration with the other key elements of the intelligence 
community at large.
    HITRAC provides analytical support and advice to the office 
of policy during negotiations on mitigation strategies that the 
U.S. government adopts to manage risk. It should be noted that 
HITRAC produces its assessments in a very compressed timeframe 
to allow policymakers maximum time to take appropriate action 
within the statutory 30-day initial timeframe and then the 45-
day extended timeframe for presidential consideration.
    In the year 2006, HITRAC reviewed 113 CFIUS cases, that is 
113, writing coordinated assessments on each one. The CFIUS 
statutes prevent us from disclosing specific information about 
these cases in an open forum, but HITRAC's assessments have 
covered a wide range of infrastructures, to include chemical, 
energy, nuclear power sectors, to the information technology 
industry, to the defense industrial base.
    Thus far in 2007, HITRAC analysts have reviewed 
approximately 30 cases, which is about a 20 percent increase 
over the same period of time from last year.
    The office of infrastructure protection at HITRAC and its 
many partners recognize that thorough scrutiny of potential 
risk posed by foreign ownership of critical infrastructure is 
absolutely vital to our nation's security and economic 
strength.
    We will continue to closely monitor CFIUS cases for the 
emergence of adverse trends and we will continue to work with 
our federal partners to ensure the performance of this mission 
meets with highest possible standards.
    Madam Chairwoman, Ranking Member Lungren, I look forward to 
your questions. And, again, thank you for the opportunity to 
present my briefing to you today.
    Ms. Jackson Lee. Thank you very much for your testimony, 
Colonel. We will look forward to engaging you in questions that 
will allow you to give us your sense of the depth of the need 
of review of critical infrastructure. So we thank you for your 
testimony.
    I now recognize Assistant Secretary Garcia to summarize his 
statement for 5 minutes.
    Thank you very much.

   STATEMENT OF HON. GREGORY GARCIA, ASSISTANT SECRETARY FOR 
 CYBERSECURITY AND TELECOMMUNICATIONS, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Garcia. Madam Chairwoman, Ranking Member Lungren and 
distinguished members of the subcommittee, I appreciate the 
opportunity to briefly address you on our role, the Office of 
Cybersecurity and Communications, in the CFIUS process.
    The Office of Cybersecurity and Communications, or CS&C, 
helps to ensure the security, integrity, reliability and 
availability of our information and communications networks.
    Leveraging the subject matter expertise in CS&C, we 
evaluate transactions for potential vulnerabilities and the 
ensuing risk to the cyber and communications sectors, as well 
as other critical infrastructure sectors.
    As appropriate, we provide risk mitigation advice and 
participate in post-action compliance reviews. This can include 
developing specific provisions in national security agreements 
between the U.S. government and the companies engaged in the 
transaction.
    For example, from a cybersecurity and communications 
availability perspective, we would just need to closely review 
foreign ownership or management or service of 
telecommunications or IT services networks.
    CS&C's role in the CFIUS process is a logical partnership 
as part of our work with cybersecurity and infrastructure 
protection. CS&C is engaged with the office of infrastructure 
protection, with Assistant Secretary Stephan, in incorporating 
cybersecurity and communications risk management processes 
throughout the national infrastructure protection plan, or the 
NIPP.
    The NIPP requires each of the 17 critical infrastructures 
and key resource sectors identified in HSPD-7 to develop 
sector-specific plans and these plans address the physical, 
human and cyber elements critical to the proper functioning of 
that sector.
    CS&C has a role in assisting sectors to address the cyber 
element by providing input to their sector-specific plans and 
developing cyber portions of risk management methodologies and 
supporting the protective programs that cut across all of those 
sectors.
    CS&C also is responsible for the development and 
implementation of the information technology sector-specific 
plan and the communications sector-specific plan in 
coordination with the IT and communications industry partners 
and the government partners responsible.
    That will conclude my comments. Thank you for the 
opportunity to appear before the subcommittee today, and I will 
be happy to answer any questions you have.
    [The statement of Mr. Baker, Colonel Stephan and Mr. Garcia 
follows:]

    Prepared Statement of the Honorable Stewart A. Baker, Assistant 
         Secretary for Policy, Department of Homeland Security

    Madam Chairman, Ranking Member Lungren, Chairman Thompson, Ranking 
Member King and distinguished members of this Subcommittee, I am 
pleased to appear before you today to discuss the Committee on Foreign 
Investment in the United States (CFIUS)--of which the Department of 
Homeland Security is a member--and about the challenges posed by 
foreign ownership of critical infrastructure.

Background
    I should emphasize at the outset that the CFIUS process is one of 
DHS's highest priorities. We have significantly increased staff and 
other resources and have a very robust review process that enables our 
Department to bring to CFIUS a diversity of viewpoints, expertise, and 
skills from across our constituent components. The government agencies 
from which we were formed give us a broad perspective, informed by a 
thorough understanding of infrastructure threats, vulnerabilities, and 
consequences.
    Since the Department began functioning in March 2003, we have 
participated in the review of hundreds of foreign acquisitions, many of 
which have involved the nation's most critical infrastructure, 
technology, and other assets vital to our national security. In 2006, 
CFIUS reviewed over 100 transactions. DHS plays a particularly 
important role in CFIUS reviews of transactions involving critical 
infrastructure, and when DHS requests mitigation agreements in those 
cases--a topic to which I'll return in a few minutes--DHS has a leading 
role in monitoring compliance with those agreements to which they are a 
party.
    DHS interprets its security mandate broadly. DHS's implementation 
of this mandate sometimes gives rise to debate within CFIUS, but it is 
a healthy debate that ultimately enhances both national security and an 
open investment climate--twin objectives DHS does not believe can be 
properly divorced from each other and which DHS always seeks to 
promote.

Jurisdiction
    I want to highlight, however, that CFIUS is not a silver bullet 
capable of securing all critical infrastructure. In particular, 
Congress explicitly--and appropriately--limited CFIUS's legal authority 
to investigations of mergers, acquisitions or takeovers by or with 
foreign persons that could result in foreign control of persons engaged 
in interstate commerce in the United States. All CFIUS jurisdictional 
decisions are made based on a thorough evaluation of the specific facts 
presented by a given transaction.
    Within CFIUS's statutory mandate,--that is, mergers or acquisitions 
that result in foreign control of U.S. businesses--our review is a 
searching one.

Our Review Process
    DHS generally analyzes the incremental risk presented by an 
acquisition in three parts: (1) vulnerability; (2) threat; and (3) 
consequences.
    The vulnerability analysis focuses on the assets being acquired. We 
ask, ``what vulnerabilities are exposed by the transaction that may be 
exploited by someone with bad intent and significant capabilities'' 
(this includes the company acquiring the U.S. operations as well as 
others who may take advantage of the new management). If a chemical 
plant is being acquired, for example, we want to know whether the 
chemicals produced are dangerous and, if so, whether there are 
significant vulnerabilities and if adequate security plans are in place 
to protect the physical facility and any sensitive data, systems, and 
networks.
    The threat analysis then asks whether the acquirer has significant 
capabilities for exploiting the target and has intent to do so. Here 
we're looking for derogatory information about the buyer. The DNI 
coordinates preparation of a National Security Threat Assessment for 
each transaction by the intelligence community (including elements 
within DHS), which generally serves as the principal source of our 
threat analysis.
    Finally, we ask what the consequences could be if the acquirer 
successfully exploited the target. To go back to the chemical plant 
example, we would want to know what would happen if someone exploited 
critical assets within the plant to cause an explosion or chemical 
release--how would that affect the surrounding communities? And we may 
need to know whether theft or exploitation of data, systems, and 
networks also could present a problem (e.g., within the chemical plant 
example: could the business systems be exploited to reveal HAZMAT 
routing information, or could the control systems be compromised to 
cause a dangerous chemical release?)
    We then weigh these three factors--vulnerability, threat, and 
consequences--to come up with an assessment of the incremental risk 
presented by the transaction.

Background on Mitigation Agreements
    In most transactions that CFIUS reviews, the increase in risk as a 
result of the foreign acquisition is either non-existent or 
sufficiently low that CFIUS needs to take no formal action. In other 
instances, we may see an increase in risk, but we may believe that 
existing authorities other than Exon-Florio and the International 
Emergency Economic Powers Act are sufficient to address the risk.
    Occasionally, however, we come to the conclusion that the 
transaction may impair national security, that the incremental risk 
posed by the transaction cannot be adequately addressed by existing 
law, and that the risk can and should be mitigated through a CFIUS 
agreement, as a condition to concluding the review or investigation 
without further action by the President.
    A CFIUS mitigation agreement is an agreement between (i) companies 
undergoing a CFIUS review and (ii) and one or more of the CFIUS 
agencies. The purpose of such an agreement is to reduce the perceived 
national security risks associated with a foreign acquisition, merger, 
or takeover of a U.S. company subject to review by CFIUS. When the 
parties come to terms, a mitigation agreement generally will pave the 
way for the CFIUS agency or agencies involved to recommend that CFIUS 
allow the transaction to proceed.
    Consistent with Exon-Florio and the important U.S. policy interest 
in maintaining an open investment climate, a CFIUS agency entering into 
a mitigation agreement seeks to mitigate national security risks using 
the means least onerous to accomplishing that end. Where CFIUS 
determines there is a risk to be mitigated, it takes a variety of 
approaches to mitigation agreements dictated by the particular 
circumstances of an individual transaction. They range from commitment 
letters on a specific issue of concern to formal mitigation agreements 
with detailed commitments including cooperation in the development and 
execution of security plans. As you would expect, agreements deemed 
necessary in transactions involving significant risks to critical 
infrastructure often are the most substantial. These agreements often 
include some combination of the following:
        <bullet> Security plan and designated security officer
        <bullet> Background checks for key personnel
        <bullet> Limitations on foreign personnel's involvement in 
        certain sensitive tasks
        <bullet> Certification of export control compliance
        <bullet> Customer lists
        <bullet> Notifications of certain security incidents, such as 
        cyber attacks
        <bullet> Compliance with various appropriate international, 
        industry, and/or Federal standards, guidelines, and recommended 
        practices
        <bullet> Right to site visits and access to books and records
        <bullet> Audits
        <bullet> Notification of changes to key management positions
        <bullet> Liquidated damages for breach
    Often the elements of these agreements--e.g., the requirements to 
have a security plan, security officer, conduct background checks, and 
comply with appropriate standards and recommended practices--reinforce 
measures already taken by the companies involved.
    In rare cases, CFIUS agencies have asked the companies involved to 
agree to an ``evergreen CFIUS'' provision--i.e., the right to re-open a 
CFIUS case if the companies materially breach the mitigation agreement. 
The decision to re-open would be made by CFIUS consensus at the highest 
levels of each agency. DHS believes that this extraordinary remedy is 
appropriate in rare circumstances where the transaction presents 
significant national security risks, existing remedies will not be 
adequate to protect the national security, and we anticipate that 
standard commercial incentives will not be sufficient to compel 
compliance with the agreement.

    Increase in Mitigation Agreements and Compliance Monitoring Work
    Given the range of its responsibilities, DHS is often among the 
agencies which identifies the need to consider a mitigation agreement. 
Reflecting the increase in filings and other factors there has been a 
notable increase in the number of mitigation agreements.
    Let me give you a few demonstrative statistics. From 2003-2005, the 
first three years of DHS's existence, we were a party to 13 mitigation 
agreements. In 2006 alone, DHS was a party to 15 mitigation agreements.
    Of course, we recognize that when we enter into these agreements, 
we assume an obligation to monitor compliance. Our compliance 
monitoring is not new--GAO credited DHS's efforts in this regard two 
years ago. For some time DHS has:
        <bullet> monitored to ensure that companies provide all reports 
        and other deliverables required by mitigation agreements;
        <bullet> reviewed all reports and other deliverables to ensure 
        that they are accurate, complete, and otherwise satisfy the 
        requirements of the agreements;
        <bullet> occasionally conducted on-site visits and audits; and
        <bullet> met with companies to discuss issues of compliance and 
        non-compliance.
    What is new, though, is that we?ve significantly increased the 
resources devoted to monitoring compliance. For example, whereas site 
visits previously were sporadic, DHS now has a program in place to 
conduct regular site visits.
    We believe that DHS's CFIUS program represents a success story 
about the protection of critical infrastructure and other assets, and I 
would be happy to answer any questions you might have about the program

              Prepared Statement of Col. Robert B. Stephan

    Madam Chairman, Ranking Member Lungren, Chairman Thompson, Ranking 
Member King and distinguished members of the Subcommittee, I appreciate 
the opportunity to briefly address you on our role in the Committee of 
Foreign Investment in the United States (CFIUS). Within the Office of 
Infrastructure Protection, we carefully monitor and analyze the risks 
posed to the Nation's critical infrastructure and key resources (CI/
KR). Part of that analysis includes an assessment of foreign ownership, 
control and influence over CI/KR. Responsibility for that analysis 
rests with the Department's Homeland Infrastructure Threat and Risk 
Analysis Center (HITRAC).
    HITRAC, a joint infrastructure-intelligence fusion center between 
the Office of Infrastructure Protection (OIP) and the Office of 
Intelligence and Analysis (I&A), provides tailored CI/KR threat and 
risk products to the private sector and our Federal, State, and local 
security partners. It monitors changes to the threats, vulnerabilities, 
and consequences associated with the Nation's infrastructure that could 
affect the national risk profile. Significant changes in the CI/KR risk 
profile will naturally drive changes in our focus, plans, and programs. 
HITRAC helps set the priorities for our collective critical 
infrastructure protection efforts.
    HITRAC also provides focused analytical support directly to the 
Office of Policy as part of the Department's role on CFIUS. As you 
know, CFIUS is the interagency committee established in 1975 to review 
the national security impact of acquisitions, mergers, and takeovers of 
U.S. assets by foreign persons. DHS was added as a full member of the 
committee in February 2003 and joined eleven other members who 
deliberate each case in accordance with the Exon-Florio statute and 
applicable Treasury regulations.
    Although the DHS Office of Policy has overall responsibility for 
the Department's CFIUS-related reviews and for making recommendations 
to the Secretary on how to approach each case, dedicated staff in 
HITRAC support Departmental decision making by preparing risk 
assessments of every filing that are provided directly to the Office of 
Policy. These assessments, prepared by a special CFIUS Support Team of 
OIP and I&A analysts within HITRAC, provide policy makers within the 
Department with an understanding of how these acquisitions can impact 
U.S. infrastructure.
    HITRAC analysts conduct detailed reviews of all classified and 
unclassified information related to the foreign company and 
subsidiaries involved in the transaction, and look for any indication 
that the foreign company or senior personnel might, as the statute 
says, ``take action that threatens to impair the national security.''
    This research is supported by our law enforcement partners such as 
Immigration and Customs Enforcement (ICE) and Customs and Border 
Protection (CBP), which can provide evidence of potentially illegal 
trade practices and reach back to the broader law enforcement 
community.
    An assessment of the threat posed by the transfer of control to 
foreign persons is, however, only part of HITRAC's analysis. HITRAC's 
CFIUS analysts work with subject matter experts in the infrastructure 
sector affected by a transaction to analyze the vulnerabilities in U.S. 
infrastructure that the transaction may expose. Obviously, situations 
in which the potential vulnerabilities can be exploited by identified 
threats raise the most serious concern. HITRAC coordinates its analysis 
with relevant Sector Specific Agencies, such as the DHS Office of Cyber 
Security and Telecommunications, the Transportation Security 
Administration, the U.S. Coast Guard, and the Department of Energy.
    The final risk assessment informs the Office of Policy's 
recommendation to the Secretary by highlighting areas of increased risk 
and proposing potential mitigation strategies the Department can use to 
manage any risk posed by the transaction. Under DHS Chief Intelligence 
Officer Charlie Allen's leadership, HITRAC's assessments also inform 
the Director of National Intelligence's reviews of each CFIUS case, in 
collaboration with the rest of the Intelligence Community.
    HITRAC continues to provide analytical support and advice to the 
Office of Policy during negotiations on mitigation agreements that the 
U.S. Government uses, in some cases, to manage risk. It should be noted 
that HITRAC produces its assessments in a very compressed timeframe to 
allow policymakers maximum time to take appropriate actions within the 
statutory 30-day timeframe mandated for initial CFIUS reviews.
    HITRAC also performs similar analytical reviews of FCC license 
transfers to foreign entities through an interagency group made up of 
the Departments of Justice, Homeland Security and Defense.
    In 2006, HITRAC analysts reviewed 113 CFIUS cases, writing 
coordinated assessments on each one. The Exon-Florio statute prevents 
us from disclosing information about specific cases, but HITRAC's CFIUS 
assessments have covered a range of infrastructures, from the chemical, 
energy and nuclear power sectors, to the information technology 
industry, to the defense industrial base.
    The Office of Infrastructure Protection and HITRAC recognize that 
thorough scrutiny of the potential risks posed by foreign ownership of 
critical infrastructure is vital to protecting the Nation's security 
and economic strength. We will continue to closely monitor CFIUS cases 
for the emergence of adverse trends, and we will continue to work with 
our Federal partners to ensure that performance of this mission meets 
with the highest standards.
    Thank you for the opportunity to appear before this Subcommittee 
today and I would be happy to answer any questions you may have at this 
time.

Prepared Statement of the Honorable Gregory Garcia, Assistant Secretary 
    for Cybersecurity and Telecommunications Department of Homeland 
                                Security

    Madam Chairman, Ranking Member Lungren, Chairman Thompson, Ranking 
Member King and distinguished members of the Subcommittee, I appreciate 
the opportunity to briefly address you on our role in the Committee on 
Foreign Investment in the United States (CFIUS). The Office of Cyber 
Security and Telecommunications helps to ensure the security, 
integrity, reliability and availability of our information and 
communications networks.
    One area of particular emphasis for us is emerging cyber security 
threats. The Department reviews transactions notified to CFIUS for 
cyber security and communications threats and vulnerabilities. 
Leveraging the subject matter expertise in our Office of Cyber Security 
and Communications (CS&C), we evaluate transactions for potential 
vulnerabilities and ensuing risk to the cyber and communications 
sectors, as well as other critical infrastructures sectors. As 
appropriate given the nature of the transaction and subsequent risk, we 
assess vulnerabilities, participate in risk assessments, provide risk 
mitigation advice and participate in post-action compliance review. 
This can include developing specific provisions in risk mitigation 
agreements with the companies engaged in the transaction.
    Our role in cyber security and infrastructure protection makes CS&C 
a logical partner in the CFIUS process. CS&C is engaged with the Office 
of Infrastructure Protection in supporting the cyber security and 
communications components of the National Infrastructure Protection 
Plan, which requires each of the 17 critical infrastructure and key 
resources sectors identified in HSPD-7 to develop Sector Specific Plans 
that address the physical, human, and cyber elements critical to the 
proper functioning of the sector. DHS/CS&C has a role in developing 
cyber portions of risk management methodologies and in supporting 
protective programs that cut across all sectors (e.g., US-CERT, the 
Control Systems Security Program). DHS/CS&C also is responsible for the 
development and implementation of the Information Technology and 
Telecommunications Sector Specific Plans in coordination private and 
public sector security partners.
    Thank you for the opportunity to appear before this Subcommittee 
today and I would be happy to answer any questions you may have at this 
time.

    Ms. Jackson Lee. Mr. Garcia, thank you. We look forward to 
having an opportunity to question you this morning, and we 
appreciate your testimony.
    I now recognize Ms. Calvaresi-Barr to summarize her 
statement for 5 minutes.
    Thank you.

 STATEMENT OF ANN CALVARESI-BARR, DIRECTOR OF ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Calvaresi-Barr. Thank you. Thank you, Madam Chairwoman 
and members of the subcommittee. I am pleased to be here today 
to discuss GAO's work on the Committee on Foreign Investment in 
the United States.
    We have conducted many reviews of CFIUS since 1990 and have 
made recommendations directed towards improving the CFIUS 
process. My statement today will address concerns from our 2005 
report, recognizing that some actions are currently under way.
    We are encouraged to hear of these efforts and appreciate 
the opportunity to recap our findings at this critical juncture 
in CFIUS's reform of the process.
    Of concern to us were the fundamentally differing views 
among CFIUS members as to what constitutes a threat to national 
security, what criteria should be used to go to an 
investigation, and the sufficiency of time for reviews.
    Regarding what constitutes a threat to national security, 
CFIUS members appeared to either view threats as limited to 
concerns about export controls, classified contracts, or 
specific derogatory intelligence against or about certain 
companies, or they viewed them more broadly in terms of 
vulnerabilities that can result from foreign control of 
critical infrastructure or critical inputs to defense systems.
    For example, in one proposed acquisition, DOD raised 
concerns about the security of supply of its specialized 
integrated circuits, circuits that the Defense Science Board 
identified as essential to a number of defense systems, such as 
UAVs.
    However, some CFIUS members argued that this was an 
industrial policy concern and, therefore, outside the scope of 
the Exxon-Florio statute.
    As a result, a key enforcement provision that would allow 
the president to reopen a CFIUS review in the event of 
noncompliance was removed, which weakened the ensuing 
agreement.
    CFIUS members also disagreed on the criteria that should be 
used to determine whether an investigation is warranted. 
Treasury and some other members used essentially the same 
criteria used by the president to suspend or prohibit an 
acquisition. That is, evidence that a credible threat exists 
and no other laws are adequate to deal with it.
    However, officials from Defense, Justice and Homeland 
Security argued that applying these criteria is misguided, 
because isn't it the purpose of an investigation to, in fact, 
determine that a credible threat exists?
    Disagreement among agency members on appropriate criteria 
for investigation can significantly impact the entire process. 
One notable case involved the acquisition of satellite 
technology.
    Some members believed that an investigation was not 
warranted because the technology was unclassified and the 
country was an ally. Others, however, argued that the 
technology was defense critical and were concerned about third-
party transfers.
    While the case went to investigation, it was withdrawn and 
ultimately resulted in weak mitigation measures.
    CFIUS members also disagreed about the sufficiency of time 
allowed for reviews. While most reviews are completed in the 
legislative timeframe, some agencies have faced significant 
time pressures to conduct reviews of certain cases.
    In one case, Homeland Security was unable to provide any 
input within the legislative timeframe.
    In addition to the differing views among members, our work 
revealed that CFIUS typically allowed companies to withdraw 
their notices in order to resolve concerns and avoid 
investigation. However, this can be particularly risky when the 
transaction has been completed and where national security 
issues have been raised. We found a number of such cases.
    Avoiding investigations contributes to the opaque nature of 
the process, a concern repeatedly raised by Congress. Without 
an investigation, there is no presidential decision and no 
required reporting to Congress.
    Given our findings, we made several recommendations. First, 
amend the Exxon-Florio statute to more clearly emphasize the 
factors that should be considered. Second, eliminate the 
distinction between review and investigation and make the 
combined period available for review.
    Third, require an annual report on the nature of concerns 
for all transactions in the preceding year. Last, when using 
withdrawals, place interim protections and timeframes for re-
filing.
    Implementing Exxon-Florio in the context of open investment 
is a fine line to walk and presents significant challenges. 
Regardless of the sector in which a foreign acquisition occurs, 
the process needs to be effective.
    While we remain optimistic that recent actions taken by 
CFIUS will help improve the process, we have not examined how 
these changes are working and strongly encourage any 
legislative effort that strengthens and sustains what is a key 
safety net in our national security framework.
    This concludes my summary statement. My full statement has 
been submitted for the record. I would be happy to answer 
questions you or other subcommittee members may have.
    Thank you.
    [The statement of Ms. Calvaresi-Barr follows:]

              Prepared Statement of Ann M. Calvaresi-Barr

    Madam Chairwoman and Members of the Subcommittee:
    I am pleased to be here today to take part in this hearing on 
issues related to foreign ownership of U.S. assets and potential 
effects on national security. As you know, U.S. export control laws, 
national disclosure policy, the National Industrial Security Program, 
and other processes and programs have been established to protect 
defense technologies and other critical assets from falling into the 
wrong hands, and for other reasons. Similarly, the Exon-Florio 
amendment to the Defense Production Act of 1950,\1\ enacted in 1988, 
authorized the President to suspend or prohibit foreign acquisitions, 
mergers, or takeovers \2\ of U.S. companies that pose a threat to 
national security. Exon-Florio is meant to serve as a safety net when 
laws other than the International Emergency Economic Powers Act \3\ may 
be ineffective in protecting national security.
---------------------------------------------------------------------------
    \1\ 50 U.S.c. app. Sec. 2170.
    \2\ In the remainder of this statement, acquisitions, mergers, and 
takeovers are referred to as acquisitions.
    \3\ The International Emergency Economic Powers Act gives the 
President broad powers to deal with any ``unusual and extraordinary 
threat'' to the national security, foreign policy, or economy of the 
United States (50 U.S.C. Sec. Sec. 1701--1706). To exercise this 
authority, however, the President must declare a national emergency to 
deal with any such threat. Under this legislation, the President has 
the authority to investigate, regulate, and, if necessary, block any 
foreign interest's acquisition of U.S. companies (50 U.S.C. 
Sec. 1702(a)(1)(B)).
---------------------------------------------------------------------------
    Exon-Florio is administered by the Committee on Foreign Investment 
in the United States, currently made up of 12 members: the Department 
of the Treasury, which serves as Chair; the Departments of Commerce, 
Defense, Homeland Security, Justice, and State; and six offices in the 
Executive Office of the President. On the surface, the Exon-Florio 
review process is fairly straightforward. According to regulations, 
after a company voluntarily files a notice of a pending or completed 
acquisition by a foreign concern, the Committee conducts a 30-day 
review to determine whether there are any national security concerns. 
If the Committee is unable to complete its review within 30 days, the 
Committee may either allow the companies to withdraw the notification 
and refile or initiate a 45-day investigation. If a case undergoes an 
investigation, the Committee submits a report to the President, 
including a recommendation for action. Cases that result in a 
presidential decision are reported to the Congress.
    As requested, my comments today will summarize our reports on 
weaknesses in the Exon-Florio process that GAO has identified over the 
past decade. Before I begin, however, it is important to provide some 
context to Exon-Florio. Specifically, implementing Exon-Florio can pose 
a significant challenge for the federal government because of the 
potential for conflict with U.S. open investment policy--a policy that, 
in recognizing the economic benefits associated with foreign 
investments, calls for foreign investors to be treated no differently 
than domestic investors. This challenge has increased significantly 
since September 2001, when threats facing the nation were fundamentally 
redefined to include threats against the homeland, including those to 
our critical infrastructure. At the same time, the economy has become 
increasingly globalized, as countries open their markets and 
communicate regularly through the Internet. Government programs 
established decades ago are often ill-equipped to grapple with these 
emerging complexities. GAO, therefore, designated the effective 
identification and protection of critical technologies as a 
governmentwide high-risk area, which warrants a strategic reexamination 
to identify needed changes.\4\ In terms of Exon-Florio, legislation has 
been introduced to reform the Exon-Florio process.
---------------------------------------------------------------------------
    \4\ High Risk Series: An Update, GAO-07-310 (Washington D.C.: Jan. 
2007).
---------------------------------------------------------------------------
    Our understanding of the Committee's process is based on our 2005 
work but built on our review of the process and our discussions with 
agency officials for our 2002 report. For our 2005 review, and to 
expand our understanding of the Committee's process for reviewing 
foreign acquisitions of U.S. companies, we met with officials from the 
Departments of Commerce, Defense, Homeland Security, Justice, and the 
Treasury--the agencies that are most active in the review of 
acquisitions--and discussed their involvement in the process. Further, 
we conducted case studies of nine acquisitions that were filed with the 
Committee between June 28, 1995, and December 31, 2004. We conducted 
our review from April 2004 through July 2005 in accordance with 
generally accepted government auditing standards.
    To summarize our work in this area, we have found that several 
aspects of the Committee's process for implementing Exon-Florio may 
have weakened the law's effectiveness. First, we found a lack of 
agreement among Committee members about the scope of Exon-Florio--
specifically, what defines a threat to national security. Neither the 
statute nor the implementing regulation defines ``national security.'' 
However, the statute provides factors that may be considered in 
determining threats to national security. Despite these factors, some 
Committee members argued to apply a more traditional definition?one 
limited to concerns about export-controlled technologies or items, 
classified contracts, and the existence of specific derogatory 
intelligence on a foreign company. Other Committee members have argued 
that a broader view is warranted, and in analyzing the effects of an 
acquisition, considered the potential vulnerabilities that an 
acquisition can create with regard to U.S. critical infrastructure, 
defense supply, and defense technology superiority. These disagreements 
may have limited the Committee's analyses of proposed or completed 
acquisitions.
    Second, Committee members also had differing opinions on the 
criteria that should be used to determine whether an investigation was 
warranted. The criteria used by Treasury as the Committee Chair and 
others were essentially the same criteria established in the current 
law for the President to suspend or prohibit a transaction, or order 
divestiture--that is, there is credible evidence that the foreign 
controlling interest may take action that threatens national security 
and that no laws other than Exon-Florio and the International Emergency 
Economic Powers Act are adequate to protect national security. Some 
Committee members have argued that applying these criteria is 
inappropriate because the purpose of an investigation is to determine 
whether or not credible evidence of a threat exists.
    Third, while most acquisitions are not problematic and the 
Committee's review can be completed within the 30-day period allowed by 
Exon-Florio, some more complex acquisitions required more analysis or 
consideration than the 30-day review period could accommodate. However, 
the Committee has been reluctant to use the additional 45 days allowed 
by the legislation because it would require initiating an 
investigation. The Committee's concern was that the negative 
perceptions surrounding an investigation could discourage foreign 
investment in the United States, thereby conflicting with U.S. open 
investment policy. To avoid investigations, the Committee has in the 
past encouraged companies to withdraw their notifications of proposed 
or completed acquisitions and refile them at a later date. Between 1997 
and 2004, companies involved in 18 acquisitions were allowed to 
withdraw their notification and refile at a later time. The new filing 
is considered a new case and restarts the 30-day clock. While 
withdrawing and refiling provides additional time for Committee members 
to review a foreign acquisition while minimizing the risk of chilling 
foreign investment, it may also heighten the risk to national security 
in transactions where there are concerns and the acquisition has been 
completed or is likely to be completed during the withdrawal period. 
This was the situation in 4 of the 18 acquisitions cited above. One 
company did not refile for 9 months, another did not refile for 1 year, 
and 2 had yet to refile at the time of our review.\5\
---------------------------------------------------------------------------
    \5\ Given the immediacy of this hearing, we were unable to gather 
and verify data on the disposition of these cases. However, even if the 
companies refiled subsequent to our 2005 reporting, the refilings were 
not timely.
---------------------------------------------------------------------------
    Finally, because very few cases required a presidential decision--
the criterion for reporting to the Congress on specific cases--the 
Congress had little insight into the Committee's process. Further, a 
1992 amendment to the legislation requires a report to the Congress 
every 4 years on certain trends in foreign acquisitions. However, at 
the time of our work only one report had been submitted, in 1994. I 
understand that another report, in response to that requirement, has 
been issued.
    Since our 2005 report, the Committee has taken some actions to 
reform the process, such as increasing communication to interested 
congressional committees. However, we have not examined how these 
changes are working. It should be noted that because the law provides 
for confidentiality of information filed under Exon-Florio, our ability 
to discuss details of cases we examined is limited.

Background
    Enacted in 1988, the Exon-Florio amendment to the Defense 
Production Act authorized the President to investigate the effects of 
foreign acquisitions of U.S. companies on national security and to 
suspend or prohibit acquisitions that might threaten national security. 
The President delegated investigative authority to the Committee on 
Foreign Investment in the United States, an interagency group 
responsible for monitoring and coordinating U.S. policy on foreign 
investment in the United States.\6\ Since the Committee's establishment 
in 1975, membership has doubled, with the Department of Homeland 
Security being the most recently added member. In addition to the 
Committee's 12 standing members, other agencies may be called on when 
their particular expertise is needed.
---------------------------------------------------------------------------
    \6\ Executive Order 11858 (May 7, 1975), as amended by Executive 
Order 12188 (Jan. 2, 1980),
    Executive Order 12661 (Dec. 27, 1988), Executive Order 12860 (Sept. 
3, 1993), and
    Executive Order 13286 (Feb. 28, 2003).
---------------------------------------------------------------------------
    In 1991, the Treasury Department, as Chair of the Committee, issued 
regulations to implement Exon-Florio. The law and regulations establish 
a four-step process for reviewing foreign acquisitions of U.S. 
companies: (1) voluntary notice by the companies; \7\ (2) a 30-day 
review to identify whether there are any national security concerns; 
(3) a 45-day investigation period to determine whether those concerns 
require a recommendation to the President for possible action; and (4) 
a presidential decision to permit, suspend, or prohibit the acquisition 
(see fig. 1).
---------------------------------------------------------------------------
    \7\Notification is not mandatory. However, any member agency is 
authorized to submit a notification of an acquisition if the companies 
have not done so. As of our 2005 report, no agency has submitted a 
notification of an acquisition. Instead, member agencies have informed 
Treasury of acquisitions that may be subject to Exon-Florio, and 
Treasury has contacted the company to encourage them to officially 
notify the Committee of the acquisition to begin a review.
---------------------------------------------------------------------------
        Figure 1: Process Used by the Committee on Foreign Investment 
        in the United States to Implement the Exon-Florio Amendment




                           Companies submit
                           voluntary filing
                           (can be pre--or
                           post-acquisition)
                           <d-arrow>
Committee actions          ......................
completed and no
national security
concerns warrant
investigation
                                                   Companies
                           Decisions to
                           investigate
                           <d-arrow>

                           45-day
                           <l-d-d-arr>investigati
                            on<r-d-d-arr>

Committee                                          Companies
recommendation to                                  withdraw filing <SUP>a</SUP>
President
<d-arrow>
                             President permits
15-day window for   <r-d-
 u-arr>                    acquisition by taking
presidential decision  <r- no action
 d-d-arr>



    <SUP>Source</SUP> GAO</SUP> analysis</SUP> based</SUP> on</SUP> 50</SUP> 
U.S.c.</SUP> app.</SUP> Sec. 2170</SUP> and</SUP> 31</SUP> C.F.R.</SUP> 
Part</SUP> 800</SUP> and</SUP> case</SUP> file</SUP> reviews.
    a</SUP>At any point prior to a presidential decision, companies can 
request to withdraw a notification.

    In most cases, the Committee completes its review within the 
initial 30 days because there are no national security concerns or 
concerns have been addressed, or the companies and the government agree 
on measures to mitigate identified security concerns. In cases where 
the Committee is unable to complete its review within 30 days, it may 
initiate a 45-day investigation or allow companies to withdraw their 
notifications. The Committee generally grants requests to withdraw. 
When the Committee concludes a 45-day investigation, it is required to 
submit a report with recommendations to the President. If Committee 
members cannot agree on a recommendation, the regulations require that 
the report to the President include the differing views of all 
Committee members.\8\ The President has 15 days after the investigation 
is completed to decide whether to prohibit or suspend the proposed 
acquisition, order divestiture of a completed acquisition, or take no 
action.\9\ Table 1 provides a breakdown of notifications and committee 
actions taken from 1997 through 2004 (the latest date for which data 
were available at the time of our 2005 review).
---------------------------------------------------------------------------
    \8\ 31 C.F.R. Sec. 800.504(b).
    \9\ In 1990, the President ordered a Chinese aerospace company to 
divest its ownership of a U.S. aircraft parts manufacturer. To date, 
this is the only divestiture the President has ordered.
---------------------------------------------------------------------------
Table 1: Notifications to the Committee on Foreign Investment in the 
United States and Actions Taken, 1997 through 2004

1997................................................                 62                  60                   0                   0                   0
1998................................................                 65                  62                   2                   2                   0
1999................................................                 79                  76                   0                   0                   0
2000................................................                 72                  71                   1                   0                   1
2001................................................                 55                  51                   1                   1                   0
2002................................................                 43                  42                   0                   0                   0
2003................................................                 41                  39                   2                   1                   1
2004................................................                 53                  50                   2                   2                   0
Total...............................................                470                 451                   8                   6                  2<SUP>c</SUP>
  ..................................................  <SUP>Source:</SUP> <SUP>Department</SUP> <SUP>of</SUP> <SUP>the</SUP> <SUP>Treasury.</SUP>
  ..................................................  <SUP>a</SUP> Acquisitions that were withdrawn and refiled are shown in the year for initial notification.
  ..................................................  <SUP>b</SUP> Investigations are shown in the year of their notification.
  ..................................................  <SUP>c</SUP> In both cases the President took no action, thereby allowing the transaction, and sent a report
                                                      to Congress.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Over the past decade, GAO has conducted several reviews of the 
Committee?s process and actions and has found areas where improvements 
were needed. In 2000, we found that gaps in the notification process 
raised concerns about the CommitteeSs ability to ensure transactions 
are notified.\10\ Our 2002 review, prompted by a lack of congressional 
insight into the process, again found weaknesses in the process. 
Specifically, we reported that member agencies could improve the 
agreements they negotiated with companies under Exon-Florio to mitigate 
national security concerns. We also questioned the use of withdrawals 
to provide additional time for reviews.\11\ While our most recent work 
indicated that member agencies had begun to take action to respond to 
some of our recommendations, concerns remained about the extent to 
which the Committee's implementation of Exon-Florio had provided the 
safety net envisioned by the law.\12\
---------------------------------------------------------------------------
    \10\ Defense Trade: Identifying Foreign Acquisitions Affecting 
National Security Can Be Improved, GAO/NSIAD-00-144 (Washington, D.C.: 
June 29, 2000).
    \11\ Defense Trade: Mitigating National Security Concerns under 
Exon-Florio Could Be Improved, GAO-02-736 (Washington, D.C.: Sept. 12, 
2002).
    \12\ Defense Trade: Enhancements to the Implementation of Exon-
Florio Could Strengthen the Law's Effectiveness, GAO-05-686 
(Washington, D.C.: Sept. 28, 2005).

Views Differed over What Constitutes a National Security Threat and 
When an Investigation Is Warranted
    In 2005, we reported that a lack of agreement among Committee 
members on what defines a threat to national security and what criteria 
should be used to initiate an investigation may have limited the 
Committee's analyses of proposed and completed foreign acquisitions. 
From 1997 through 2004, the Committee received a total of 470 notices 
of proposed or completed acquisitions,\13\ yet it initiated only 8 
investigations.
---------------------------------------------------------------------------
    \13\ Nineteen of these notices were refilings.
---------------------------------------------------------------------------
    While neither the statute nor the implementing regulation defines 
``national security,'' the statute provides a number of factors that 
may be considered in determining a threat to national security (see 
fig. 2).

Figure 2: Exon-Florio Factors That May Be Considered When Determining a 
Threat to National Security
        <bullet> Domestic production needed for projected national 
        defense requirements.
        <bullet> The capability and capacity of domestic indurstries to 
        meet national defense requirements, including the availability 
        of human resources, products, technology, materials, and other 
        supplies and services.
        <bullet> the control of domestic industries and commercial 
        activity by foreign citizens as it affects the capability and 
        capacity of the United States to meet national security 
        requirements.
        <bullet> The potential effects of the proposed or pending 
        transaction on sales of military goods, equipment, or 
        technology to any country identified under applciable law as 
        (a) supporting terrorism or (b) a country of concern for 
        missile proliferation or the proliferation of chemical and 
        biological weapons.
        <bullet> The potential effects of the proposed or pending 
        transaction on U.S. international technological leadership in 
        areas affecting national security.
    <SUP>Source</SUP> 50</SUP> U.S.C.</SUP> app.</SUP> Sec. 2170(f).

        </SUP><bullet> Some Committee member agencies argued for a more 
        traditional and narrow definition of what constitutes a threat 
        to national security--that is, (1) the U.S. company possesses 
        export-controlled technologies or items; (2) the company has 
        classified contracts and critical technologies; or (3) there is 
        specific derogatory intelligence on the foreign company. Other 
        members, including the Departments of Defense and Justice, 
        argued that acquisitions should be analyzed in broader terms. 
        According to officials from these departments, vulnerabilities 
        could result from foreign control of critical infrastructure, 
        such as control of or access to information traveling on 
        networks. Vulnerabilities can also result from foreign control 
        of critical inputs to defense systems, such as weapons system 
        software development \14\ or a decrease in the number of 
        innovative small businesses researching and developing new 
        defense-related technologies.
---------------------------------------------------------------------------
    \14\ 14Defense Acquisitions: Knowledge of Software Suppliers Needed 
to Manage Risks, GAO-04-678 (Washington D.C.: May 25, 2004).
---------------------------------------------------------------------------
    While these vulnerabilities may not pose an immediate threat to 
national security, they may create the potential for longer term harm 
to U.S. national security interests by reducing U.S. technological 
leadership in defense systems. For example, in reviewing a 2001 
acquisition of a U.S. company, the Departments of Defense and Commerce 
raised several concerns about foreign ownership of sensitive but 
unclassified technology, including the possibility of this sensitive 
technology being transferred to countries of concern or losing U.S. 
government access to the technology. However, Treasury argued that 
these concerns were not national security concerns because they did not 
involve classified contracts, the foreign company's country of origin 
was a U.S. ally, or there was no specific negative intelligence about 
the company?s actions in the United States.
    In one proposed acquisition, disagreement over the definition of 
national security resulted in an enforcement provision being removed 
from a mitigation agreement between the foreign company and the 
Departments of Defense and Homeland Security. Defense had raised 
concerns about the security of its supply of specialized integrated 
circuits, which are used in a variety of defense technologies that the 
Defense Science Board had identified as essential to our national 
defense--technologies found in unmanned aerial vehicles, the Joint 
Tactical Radio System, and cryptography and other communications 
protection devices. However, Treasury and other Committee members 
argued that the security of supply issue was an industrial policy 
concern and, therefore, was outside the scope of Exon-Florio's 
authority. As a result of removing the provision, the President's 
authority to require divestiture under Exon-Florio was eliminated as a 
remedy in the event of non-compliance.\15\
---------------------------------------------------------------------------
    \15\ The regulations provide that the Committee may reopen its 
review or investigation and revise its recommendation to the President 
if it determines that the companies omitted or provided false or 
misleading material information to the Committee (31 C.F.R. 
Sec. 800.601(e)).
---------------------------------------------------------------------------
    Committee members also disagreed on the criteria that should be 
applied to determine whether a proposed or completed acquisition should 
be investigated. While Exon-Florio provides that the ``President or the 
President's designee may make an investigation to determine the effects 
on national security'' of acquisitions that could result in foreign 
control of a U.S. company, it does not provide specific guidance for 
the appropriate criteria for initiating an investigation of an 
acquisition.\16\ At the time of our work, Treasury, as Committee Chair, 
applied essentially the same criteria established in the law for the 
President to suspend or prohibit a transaction, or order divestiture: 
(1) there is credible evidence that the foreign controlling interest 
may take action to threaten national security and (2) no laws other 
than Exon-Florio and the International Emergency Economic Powers Act 
are adequate and appropriate to protect national security.\17\ However, 
the Defense, Justice, and Homeland Security Departments argued that 
applying these criteria at this point in the process is inappropriate 
because the purpose of an investigation is to determine whether or not 
credible evidence of a threat exists. Notes from a policy-level 
discussion of one particular case further corroborated these differing 
views.
---------------------------------------------------------------------------
    \16\ 1650 U.S.C. app. Sec. 2170(a). Under the statute, 
investigations are mandatory in those cases in which the acquiring 
company is ``controlled by or acting on behalf of a foreign 
government'' and the acquisition could result in control of the U.S. 
company and could affect the national security of the United States (50 
U.S.C. app. Sec. 2170(b)).
    \17\ 50 U.S.C. app. Sec. 2170(e).

Committee Allowed Withdrawal of Notifications to Avoid Investigations
    Committee guidelines required member agencies to inform the 
Committee of national security concerns by the 23rd day of a 30-day 
review--further compressing the limited time allowed by legislation to 
determine whether a proposed or completed foreign acquisition posed a 
threat to national security. According to one Treasury official, the 
information is needed a week early to meet the legislated 30-day 
requirement. While most reviews are completed in the required 30 days, 
some Committee members have found that completing a review within such 
short time frames can be difficult--particularly in complex cases. One 
Defense official said that without advance notice of the acquisition, 
time frames are too short to complete analyses and provide input for 
the Defense Department's position. Another official said that to meet 
the 23-day deadline, analysts have only 3 to 10 days to analyze the 
acquisition. In one instance, Homeland Security was unable to provide 
input within the 23-day time frame.
    If a review cannot be completed within 30 days and more time is 
needed to determine whether a problem exists or identify actions that 
would mitigate concerns, the Committee can initiate a 45-day 
investigation of the acquisition or allow companies to withdraw their 
notifications and refile at a later date.\18\ According to Treasury 
officials, the Committee's interest is to ensure that the 
implementation of Exon-Florio does not undermine U.S. open investment 
policy. Concerned that public knowledge of investigations could devalue 
companies' stock, erode confidence of foreign investors, and ultimately 
chill foreign investment in the United States, the Committee has 
generally allowed and often encouraged companies to withdraw their 
notifications rather than initiate an investigation.
---------------------------------------------------------------------------
    \18\ Exon-Florio's implementing regulations permit companies to 
request to withdraw notifications at any time up to a presidential 
decision. After the Committee approves a withdrawal, any subsequent 
refiling is considered a new, voluntary notice.
---------------------------------------------------------------------------
    While an acquisition is pending, companies that have withdrawn 
their notification have an incentive to resolve any outstanding issues 
and refile as soon as possible. However, if an acquisition has been 
concluded, there is less incentive to resolve issues and refile, 
extending the time during which any concerns remain unresolved. Between 
1997 and 2004, companies involved in 18 acquisitions withdrew their 
notification and refiled 19 times. In four cases, the companies had 
already concluded the acquisition before filing a notification. One did 
not refile until 9 months later and another did not refile for 1 year. 
Consequently, concerns raised by Defense and Commerce about potential 
export control issues in these two cases remained unresolved for as 
much as a year--further increasing the risk that a foreign acquisition 
of a U.S. company would pose a threat to national security.
    For the other two cases, neither company had refiled at the time we 
completed our work. In one case, the company had previously withdrawn 
and refiled more than a year after completing the acquisition. The 
Committee allowed it to withdraw the notification to provide more time 
to answer the Committee's questions and provide assurances concerning 
export control matters. The company refiled, and was permitted to 
withdraw a second time because there were still unresolved issues. When 
we issued our report in 2005, 4 years had passed since the second 
withdrawal without a refiling. In the second case, the company--which 
filed with the Committee more than 6 months after completing its 
acquisition--was also allowed to withdraw its notification. At the time 
we issued our report, 2 years had passed without a refiling.
Lack of Reporting Contributed to the Opaqueness of the Committee's 
Process and Diminished Oversight
    In response to concerns about the lack of transparency in the 
Committee's process, the Congress passed the Byrd Amendment to Exon-
Florio in 1992, requiring a report to the Congress if the President 
made any decision regarding a proposed foreign acquisition. In 1992, 
another amendment also directed the President to report every 4 years 
on whether there was credible evidence of a coordinated strategy by one 
or more countries to acquire U.S. companies involved in research, 
development, or production of critical technologies for which the 
United States is a leading producer, and whether there were industrial 
espionage activities directed or assisted by foreign governments 
against private U.S. companies aimed at obtaining commercial secrets 
related to critical technologies.
    While the Byrd Amendment expanded required reporting on Committee 
actions, few reports have been submitted to the Congress because 
withdrawing and refiling notices to restart the clock has limited the 
number of cases that result in a presidential decision. Between 1997 
and 2004, only two cases--both involving telecommunications systems--
resulted in a presidential decision and a subsequent report to the 
Congress. Infrequent reporting of Committee deliberations on specific 
cases provides little insight into the Committee?s process to identify 
concerns raised during investigations and determine the extent to which 
the Committee has reached consensus on a case. Further, despite the 
1992 requirement for a report on foreign acquisition strategies every 
four years, at the time of our work there had been only one report--in 
1994. However, another report, in response to this requirement, was 
recently delivered to the Congress.
    In conclusion, the effectiveness of Exon-Florio as a safety net 
depends on how the broad scope of its authority is implemented in 
today's globalized world--where identifying threats to national 
security has become increasingly complex. While Exon-Florio provides 
the Committee on Foreign Investment in the United States the latitude 
to define what constitutes a threat to national security, the more 
traditional interpretation fails to fully consider factors currently 
embodied in the law. Further, the Committee guidance requiring reviews 
to be completed within 23 days to meet the 30-day legislative 
requirement, along with the reluctance to proceed to an investigation, 
limits agencies' ability to complete in-depth analyses. However, the 
alternative--allowing companies to withdraw and refile their 
notifications--increases the risk that the Committee, and the Congress, 
could lose visibility over foreign acquisitions of U.S. companies. The 
criterion for reporting specific cases to the Congress only after a 
presidential decision contributes to the opaque nature of the 
Committee's process.
    Our 2005 report laid out several matters for congressional 
consideration to (1) help resolve the differing views as to the extent 
of coverage of Exon-Florio, (2) address the need for additional time, 
and (3) increase insight and oversight of the process. Further, we 
suggested that, when withdrawal is allowed for a transaction that has 
been completed, the Committee establish interim protections where 
specific concerns have been raised, specific time frames for refiling, 
and a process for tracking any actions being taken during a withdrawal 
period. We have been told that some of these steps are now being taken.
    Madam Chairwoman, this concludes my prepared statement. I will be 
happy to answer any questions you or other Members of the Subcommittee 
may have.

Scope and Methodology
    Our understanding of the Committee's process is based on our 2005 
work but built on our review of the process and our discussions with 
agency officials for our 2002 report. For our 2005 review, and to 
expand our understanding of the Committee's process for reviewing 
foreign acquisitions of U.S. companies, we met with officials from the 
Departments of Commerce, Defense, Homeland Security, Justice, and the 
Treasury--the agencies that are most active in the review of 
acquisitions--and discussed their involvement in the process. Further, 
we conducted case studies of nine acquisitions that were filed with the 
Committee between June 28, 1995, and December 31, 2004. We selected 
acquisitions based on recommendations by Committee member agencies and 
the following criteria: (1) the Committee permitted the companies to 
withdraw the notification; (2) the Committee or member agencies 
concluded agreements to mitigate national security concerns; (3) the 
foreign company had been involved in a prior acquisition notified to 
the Committee; or (4) GAO had reviewed the acquisition for its 2002 
report. We did not attempt to validate the conclusions reached by the 
Committee on any of the cases we reviewed. To determine whether the 
weaknesses in provisions to assist agencies in monitoring agreements 
that GAO had identified in its 2002 report had been addressed, we 
analyzed agreements concluded under the Committee?s authority between 
2003 and 2005. We conducted our review from April 2004 through July 
2005 in accordance with generally accepted government auditing 
standards.
    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. It may be reproduced and 
distributed in its entirety without further permission from GAO. 
However, because this work may contain copyrighted images or other 
material, permission from the copyright holder may be necessary if you 
wish to reproduce this material separately.

    Ms. Jackson Lee. I thank all the witnesses, and I thank you 
for your testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel.
    Let me also acknowledge the presence of Congresswoman 
Eleanor Holmes Norton. We thank her for her presence here.
    And, Mr. Bilirakis, we thank you.
    Before I recognize myself for questioning, without 
objection, I would like to insert into the record the 
Congressional Research Service report on ``Exxon-Florio Foreign 
Investment Provision Overview of H.R. 556,'' from February 27, 
2007, and Ms. Calvaresi-Barr's GAO report No. 05686.
    See committee file.
    Ms. Jackson Lee. I will now recognize myself for questions.
    First, Mr. Baker, I am interested in ensuring, this 
committee, I would hope is interested, and the full committee, 
Chairman Thompson and the ranking member, Mr. King, in being 
vigorous in anything that we do.
    I think when we look at incidences like Madrid and like the 
London bombing, we know that, as I said earlier, we are 
telegraphed in what might happen.
    Tell me how vigorous the Department of Homeland Security is 
in this process and, tell me, what is the missing element?
    You, obviously, are the point person, meaning your office, 
when the call comes in that we are now engaged in the process. 
We have a transaction. The participants are anxious and we need 
to move quickly.
    What is the framework that is used? And you might also 
answer, what is missing?
    Mr. Baker. Madam Chairman, thank you very much. It is an 
excellent question.
    First, I should say we encourage companies to tell us long 
before they file that they are contemplating a transaction, so 
that we can begin our work well before the 30 days begins, 
because 30 days is not enough time for a complex transaction 
with serious concerns. So often we will get the call well 
before a filing date.
    But as soon as we get the call, we will assign one of our 
CFIUS experts to the case. They will being doing research on 
it. We will gather open source information about the 
transaction.
    We will also alert the intelligence community and let them 
know about the transaction. We will let Bob Stephan know about 
the transaction so that they can begin looking at it, as well.
    Once we get back some basic information on the parties to 
the transaction, the nature of the field, we will begin doing 
our analysis from the point of view of what our existing 
authorities are, what existing authority do we have to regulate 
the company to make sure that it does maintain high security 
standards.
    If we think that there may be some gaps in our authority 
under existing law to address all of the potential concerns, we 
will begin asking, ``Well, do we need a mitigation agreement to 
address those concerns?''
    After 21 days, we will get an intelligence report that 
tells us whether there are any particular concerns about the 
company, its management, its ownership, the governments that it 
has close relationships with, and that will allow us to focus 
very carefully on particular threats.
    At that point, we will put forward a mitigation agreement, 
if we think it is necessary, and often we will negotiate these 
deep into the night and overnight, because we usually have 
fewer than 3 or 4 days to get agreement on those.
    While we can extend that, typically, a week or less is how 
long we will spend negotiating any agreement.
    Ms. Jackson Lee. I appreciate that scenario. What is 
missing? These agreements, these MOUs, are they missing, not 
included? Tell us what is missing.
    Mr. Baker. We are very glad that the House and this 
committee are looking hard at mitigation agreements, because, 
in fact, the statute doesn't have anything to say about 
mitigation agreements, even though we rely on them very 
heavily.
    The statute didn't contemplate them. They are something 
that we have added to the process.
    The new bill that is being considered here in the House 
would add the recognition of those agreements and give them 
force and enforceability in ways that will be very helpful to 
us.
    Ms. Jackson Lee. Thank you.
    Colonel Stephan, do you think, in the work that you do, 
that we are not as conversant with the idea that critical 
infrastructures are vast and that there is a need for extensive 
oversight to ensure that elements that may include foreign 
investment are important to engage and to be able to assess the 
danger that they might pose?
    Colonel Stephan. Yes, ma'am. We are very intricately 
involved with the process led by the policy office under the 
leadership of my friend, Mr. Baker, here.
    I have dedicated an increasing number of my staff and an 
increasing amount of my time and energy actually to coalescing 
a specialized team of experts, infrastructure analysis, to deal 
with this issue.
    I consider to be a very significant issue, something that 
we have to study very carefully and we have to provide the 
leadership in terms of the analytical piece.
    One person that is missing here that is a key part of all 
this is Assistant Secretary Charlie Allen, with the INTEL and 
the threat slice. We have jointly agreed to combine a certain 
amount of our staff capability to focus on this problem.
    In addition to the organic capability that we have in the 
department between Charlie Allen and I, depending on the nature 
of the infrastructure sets or subsets involved in any potential 
transaction, we also, through our guys, provide further 
outreach to the Department of Energy, Department of Defense, 
Department of Transportation, Commerce, others, to bring more 
analytical focus to the problem.
    My piece of this isn't really too full. I have to determine 
what the possible vulnerabilities are on a sector-by-sector 
basis and on a cross-sector basis in terms of any proposed 
transaction and, secondly, I have to determine what the 
rippling, cascading consequences might if we have a bad actor 
that is, in fact, engaged in a process to acquire a particular 
infrastructure or system of infrastructures of concern to us.
    Again, more and more brainpower from within my shop, more 
and more cases, we see the caseload growing about 20 percent to 
30 percent a year over the past couple of years. So lots more 
time and talents from my shop focused on this, ma'am.
    Ms. Jackson Lee. Quickly, Ms. Calvaresi-Barr, we can't 
afford missteps, I believe, in this process, and I think 
oversight is important. What would you consider the major 
misstep or need for improvement pursuant to your report?
    Ms. Calvaresi-Barr. I think that, as I mentioned before, it 
appears that there are certain changes that are currently under 
way.
    I think some of the biggest concerns that we had are the 
factors that are considered when you look at a threat to 
national security and I think with the introduction and the 
involvement of the Department of Homeland Security in the 
process now, they have brought a new view to that and I think 
some of those things that were considered previously by the 
committee as sort of outside of the scope of Exxon-Florio are 
now getting increased attention as a result.
    And I would like to just second what Mr. Baker said in 
terms of DHS's involvement in the process. We definitely did 
see more rigor, even in our 2005 review, over monitoring 
compliance with the agreements and putting some teeth into 
those agreements. So we were pleased to see that.
    In terms of what is missing, you can see that in 2005, we 
had a number of findings and we had a number of concerns around 
not only the factors looked at, but the sufficiency of time and 
the extent to which these cases made it to a full 
investigation.
    Since we haven't done work since that time period, I am not 
quite sure how things have improved, but I think we have heard 
here today from some of the recent numbers that the number of 
filings are up and, certainly, the number of mitigation 
agreements also appear to have increased.
    But, again, GAO has not looked at the implementation of 
some of those actions since our 2005 work.
    Ms. Jackson Lee. I thank the witness.
    And I yield to the distinguished gentleman from California, 
Mr. Lungren.
    Mr. Lungren. I thank you very much, Madam Chairwoman.
    Secretary Baker, you mentioned that you folks are the 
junior ones, that is, most recently formed. You didn't exist 
with the CFIUS process first started.
    One of the concerns some people expressed during the Dubai 
controversy was whether or not the DOD and Homeland Security 
were sufficiently--their concerns were sufficiently taken into 
account.
    How does the process work in that the secretary of treasury 
is the top guy? And the legislation we have that would make the 
homeland security secretary the vice chair of that, something 
we think is good, but is that mere window dressing or would 
that actually make a difference in terms of the way the 
considerations are made and the final decision is made?
    Mr. Baker. Thank you, Ranking Member Lungren.
    Treasury is the chair and I know there have been times in 
the past when treasury has been criticized as taking into 
account too much the concerns of investors and not enough the 
concerns of national security agencies.
    We have no complaints of that sort. The Treasury Department 
has been an evenhanded and fair-minded broker as difficult 
issues have been thrashed out.
    The House bill does propose, I think, to make the 
Department of Homeland Security a vice chair of the committee. 
To tell the truth, we have doubts about how valuable that would 
be in terms of putting us in a different position from the 
position we are in now.
    We have a substantial amount of authority to pursue our own 
interests and where the entire government has to be involved. 
We have to persuade the rest of the agencies that we are right 
and I don't think any of that would change if we were the vice 
chair.
    Mr. Lungren. Can you tell me how many DHS employees work on 
CFIUS issues?
    Mr. Baker. It would be hard to give you an exact number, 
because we rely heavily on other parts of the agency, but it is 
certainly in double figures. We have a number that work 
directly for me. HITRAC has dozens of people who, at one time 
or another, we would draw on for this.
    Mr. Lungren. Do you need additional resources in order to 
do this job, since we are having an increase in the number of 
applications and considerations?
    Mr. Baker. We have increased our resources for this and I 
believe the 2008 budget request from the administration also 
reflects the request for additional resources.
    So, yes, we would be delighted to get more resources.
    Mr. Lungren. When CFIUS was first created under President 
Ford, at his direction, we were still in the Cold War. We 
basically were looking at other countries with an aspect 
towards their alignment in the Cold War.
    We now have a situation in which international terrorism is 
a major concern, if not the major concern. Things can change 
quickly in terms of governments, in terms of the political 
dynamic in a particular country.
    Is there a review process such that after a review has 
taken place, with or without mitigation agreements, that 2 or 3 
years down the line, we take into consideration the change in a 
government or the change in the influence of terrorist 
operatives with respect to particular economic interests that 
may be involved with an agreement that has been made?
    Mr. Baker. That is a very good question. If the transaction 
was passed without a mitigation agreement, the general view has 
been we should not let markets think that we will be constantly 
interfering in the transaction.
    In fact, the principal reason people file in CFIUS is to 
get the good housekeeping seal of approval that means we won't 
go back and reopen the deal.
    But if there has been a mitigation agreement, we do have 
authority to go back and see how it has been performed.
    Mr. Lungren. How do you enforce that?
    Mr. Baker. Well, we have been writing in tougher and 
tougher provisions to these agreements and--
    Mr. Lungren. So how do you enforce the tougher and tougher 
elements?
    Mr. Baker. Well, we can order people to obey. These days, 
typically, we will ask for fine authority up to 15 or 20 or 30 
percent of the actual value of the transaction, which certainly 
concentrates people's minds.
    In very rare cases--
    Mr. Lungren. Has that ever occurred?
    Mr. Baker. Have we ever assessed a fine?
    Mr. Lungren. Yes.
    Mr. Baker. No, we have not.
    Mr. Lungren. Have we ever threatened to assess the fine?
    Mr. Baker. We have not had to threaten to assess the fine, 
but we have had circumstances in which someone we believed had 
not been fully compliant with past agreements, where that has 
been a factor in our decision to say, ``You know, this next 
transaction you want to do, don't do it.''
    Mr. Lungren. Thank you very much, Madam Chairwoman.
    Ms. Jackson Lee. Thank you very much, Mr. Lungren.
    I am now pleased to yield 5 minutes to the distinguished 
gentlelady from New York, Ms. Clarke.
    Ms. Clarke. Thank you, Madam Chair, Ranking Member Lungren.
    Good morning to each of you, and thank you for your 
testimony here today.
    As the world economy increasingly globalizes, it is 
important that the United States pay close attention as to how 
this could impact on our homeland security.
    I come from New York City. I am a native New Yorker and it 
is indeed the most global city on the earth. Every day, as 
markets shift, as companies buy and sell goods and services, as 
new businesses open and old companies are sold, there is more 
international commerce in New York than anywhere else.
    Therefore, the issue of foreign ownership's impact on 
homeland security is not just a question of protecting our 
homeland, but for me and my constituencies, also a question of 
protecting my hometown.
    Though CFIUS was created to ensure that foreign investment 
or ownership of U.S. companies and infrastructure would not 
adversely affect America's security, the debacle that occurred 
last year over management of U.S. ports puts the work of CFIUS 
into question.
    At that time, the nation learned that the approval process 
is highly secretive, that there is little input from the 
outside or no input from Congress.
    We also learned that the process must happen so quickly 
that the committee often fails to perform full investigations.
    If this is not changed, someday a detail will be missed and 
America's security will be put at risk.
    Mr. Baker, I want to ask, we have heard from your testimony 
that disagreement over the definition of national security has 
led to enforcement problems. In the past, some members of CFIUS 
have felt that it is OK to allow a foreign company to have 
sensitive government technology and other secrets and have 
decided that CFIUS should not get involved in an industrial 
policy concern.
    Other members of the group, such as DOD, have had strong 
reservations about this information getting out.
    How does the department define national security in this 
context?
    Mr. Baker. Thank you, Representative Clarke. My hometown 
too. I went to PS-196.
    I think that that is an excellent question and one that 
each agency, at the end of the day, answers for itself. So I 
can only speak for the Department of Homeland Security.
    We take a very broad view of what national security 
entails. WE have to ask how could a creative enemy use this 
capability, this investment against us and what can we do to 
make sure that we have made the company and the assets as 
secure as possible after the transaction.
    And we are not limited to a Cold War view of national 
security or a purely governmental view of national security. If 
we think the terrorists could misuse access to an asset by 
virtue of a transaction, then we will ask for action to make 
sure that that security hole is closed.
    Ms. Clarke. Has there been any discussion about whether, in 
fact, a standard, a bar should be set amongst the agencies that 
would interact with respect to these transactions?
    Mr. Baker. That has been discussed, but there are some 
difficulties with that from both the point of view of the 
people who have a narrower view of national security and from 
our point of view, as well.
    Homeland security concerns a lot of things. The food supply 
of the country, obviously, implicates homeland security. But 
that doesn't mean that we want to regulate every time a farm is 
bought by somebody from outside the country and we wouldn't 
want to imply that we were. At the same time, we wouldn't want 
to exclude agriculture and farming from our definition of 
homeland security.
    So we have had to play it, to some extent, by ear and be 
flexible about particular transactions. So I would not suggest 
that we set a standard, because we could end up constrained by 
it or creating something that arouse unnecessary fears in 
investors.
    Ms. Clarke. And let me just ask, are you at all concerned 
about foreign companies and governments having control over 
highly sensitive American technology?
    Mr. Baker. Yes. You have to look at the particular 
technology. We are an importer of technology, as well as a 
developer of technology these days and we want to be able to 
invest abroad in technology firms.
    But there are some technologies where the U.S. has a lead 
and it is important to our security and we should continue to 
maintain that lead.
    Ms. Clarke. Thank you for your responses to these 
questions. And I did detect a little New York accent.
    Thank you, Madam Chair.
    Ms. Jackson Lee. Thank you for your constructive 
questioning, Ms. Clarke, and thank you for your noting your 
relationship between the PSes around here, public schools.
    Mr. Lungren. Could I ask a question, as a westerner? Is 
there a single New York accent? I am surprised.
    Ms. Clarke. I think Brooklyn kind of supersedes every other 
part of the city.
    Ms. Jackson Lee. We will make sure the clerk is getting 
that exchange. Thank you.
    Mr. Bilirakis, I don't know if there is a Pennsylvania 
accent, but we are delighted to yield to the distinguished 
gentleman for 5 minutes.
    Mr. Bilirakis. We have got a little Florida, a little 
Pennsylvania, a little Greek, whatever works. Thank you.
    Ms. Jackson Lee. And it is Mr. Bilirakis of Florida, as he 
has noted.
    Mr. Bilirakis. Although my dad is from Pennsylvania.
    Ms. Jackson Lee. I know that.
    Mr. Bilirakis. Secretary Baker, I have one question.
    In your written testimony, you state that the Committee on 
Foreign Investment in the United States' authority is limited 
to investigations of mergers, acquisitions or takeovers by or 
with foreign persons that could result in foreign control, or 
persons engaged in interstate commerce in the United States.
    You have touched on this. Should the committee's authority 
be expanded and if so, do you have any recommendations on 
expansions of that authority which could be beneficial to the 
review process?
    Mr. Baker. On the whole, expanding the authority would 
greatly expand our workload and the concerns among investors in 
whether their transactions are going to be covered, and I am 
not sure it would give us much more clout in investigating 
risks to national security.
    We have the authority to say, ``You are calling this a 
lease, but we think it is, in fact, an acquisition. You are 
calling it a loan. We think it is really an acquisition.''
    So we have a fair amount of authority where we think 
national security is involved and that there really is a 
transfer of control. And so we have not felt that we needed 
more authority to investigate a number of things that could 
turn out simply to be ordinary commercial transactions.
    Mr. Bilirakis. Thank you.
    Thank you, Madam Chair.
    Mr. Lungren. Would the gentleman yield? If I could ask a 
question on your time of Mr. Garcia.
    That is a concern that I and other members of this 
committee and subcommittee have expressed over time has been 
that both in the private and the public sector, we haven't 
taken sufficient notice of the importance of cybersecurity, 
that is, the cyber world embedded in so much of what we do.
    Since that is a general observation, can you tell us 
whether you are satisfied that CFIUS, as presently constituted, 
appreciates the role of the cyber world in these questions of 
critical infrastructure and whether or not they have manifested 
the technology understanding and fix to make those kinds of 
issues sufficiently reviewed in this overall process?
    Mr. Garcia. Yes, sir. Thank you for that question, 
Congressman.
    Yes, I am satisfied and I think it is important to note 
that the threats and vulnerabilities facing our communications 
and cyber infrastructures are constantly evolving. So we need 
to constantly evolve our understanding and awareness of those 
vulnerabilities.
    And my office, working in partnership with Secretary Baker 
and Secretary Stephan, looks really at two things. First, the 
extent to which an acquisition will result in or exacerbate 
vulnerabilities in the communications or cyber infrastructures 
specifically, but also the extent to which those cyber and 
communications infrastructures can be used to create 
vulnerabilities or threats against physical infrastructures.
    As you alluded, our cyber and communications infrastructure 
is a foundation, an operational foundation for virtually every 
one of the critical infrastructure sectors. We depend on those 
communications and cyber infrastructures in order for us to do 
our work in all of the others.
    So to the extent that any acquisition may result in 
additional vulnerabilities to those physical infrastructures 
through control systems or other vulnerabilities, we have a 
direct role and have participated in the CFIUS process to 
identify what those vulnerabilities are.
    Mr. Lungren. I thank you.
    I thank the gentleman for yielding the time to me. 
Appreciate it.
    Mr. Bilirakis. Thank you, Madam Chair.
    Ms. Jackson Lee. Thank you very much, Mr. Bilirakis.
    I am now delighted to yield 5 minutes to the gentlelady 
from the District of Columbia, Ms. Eleanor Holmes Norton.
    Ms. Norton. Thank you, Madam Chair.
    Ms. Jackson Lee. Who is in a battle all of her own about 
the critical infrastructure of voting. We look forward to that 
moving forward.
    Ms. Norton. That is going to be over soon with a victory.
    Madam Chair, this is an important hearing and I am very 
pleased you have called it and called our attention to it.
    Just before I get to my CFIUS question, could you give me 
some context here?
    The context I need has a lot to do with the Open Skies 
Treaty, which is still very controversial in another of my 
committees. It is still is going nowhere, in part, because of 
security concerns.
    I think everybody has come to grips with the fact that this 
is both a global economy and a technological economy all 
happening at the same time. We are talking about investments, 
transactions that normally the government would have nothing to 
do with. They have to occur in real time.
    Give me some context. Does the United States have 
ownership, a fair amount of ownership in the critical 
infrastructure of other countries and if so, what have they 
done to protect, quote, themselves, not from us, but form the 
same concerns we have?
    Mr. Baker. I don't have the exact figures, but, yes, I 
think that, first, probably 80 or 90 percent of the critical 
infrastructure of the United States is in private hands and 
similar numbers are probably true throughout the Western world, 
and a number of our companies are big investors abroad, whether 
it is IBM or General Electric.
    They own large chunks of the infrastructure?
    Ms. Norton. They must own those in countries that have not 
only similar concerns, but, frankly, some of them certainly in 
Europe--
    Mr. Baker. That is right.
    Ms. Norton. --had more, if I can call it, experience with 
terrorism than we have.
    Have you learned anything from them? Have they proceeded 
smoothly in this way, with or without something comparable to 
CFIUS?
    Yes, Ms. Barr?
    Ms. Calvaresi-Barr. Yes. You might be interested to know 
that we were pressed by Senate Banking to actually look at 
foreign direct investment in other countries, the extent to 
which other countries have national security reviews, are they 
similar to what the United States has? How do they differ, if 
they differ? Are we being too rigorous, things of that nature.
    So just I response to that, I think, clearly, other 
countries do have national security reviews. From work that we 
did previously on this issue, it is rather dated now and that 
is why we have been asked to come back in and look.
    Some of them kind of look like our process. Others are 
little bit more rigorous and some are a little bit lighter.
    So we are going to go back in and we are going to take a 
look and do a current assessment of what those other national 
security?
    Ms. Norton. I would appreciate it. They have been more 
vulnerable and closer to the sources of concern and, in some 
ways, they have been ahead of us on security, witness, what 
somehow we took credit for, but clearly was entirely a British 
matter and that is the plane or the terrorist that almost got 
on the plane that came here.
    They just caught him and it was extraordinary to see.
    I really have questions about cybersecurity in light of the 
pace of technology. I mean, it is kind of pitiful when we see 
Congress try to regulate in a technological area, because it is 
very hard to do.
    It is very hard to do, because whatever you are regulating 
right from under you can change and that is inevitable.
    What concerns me is that given that changing pace, I would 
have to assume, in the cybersecurity area, that the United 
States of America is not always ahead of the game, ahead of the 
curve.
    I have no reason to believe that other science, for 
example, in the technological area is not, in some cases, even 
more advanced.
    Let me just give an example that has no relevance. I 
understand that Southern Europe laughed at our cell phones, 
because they consider them so backward.
    Perhaps we are further ahead when it comes to other 
technology or the technology we are concerned about. But I have 
no reason to believe that we are ahead in terms of the 
scientific thinking of the Japanese, the Chinese or the 
Europeans.
    So here we are looking at cybersecurity at a moment in time 
and I understand what you said about not essentially monitoring 
this every other moment. So with the changing nature of 
technology, with the unknown there, I am not sure why we should 
feel secure in the cybersecurity area, unless there is some way 
to keep track of whether people who are--if you will forgive 
me--ahead of us I a number of technological areas, why we 
shouldn't assume that all kinds of things could happen that no 
one even dreamed of, not investigated, even dreamed of.
    That is what technology is about today.
    If you would tell me why I should feel safe and secure in 
light of those changes, I would be happy to hear it.
    Mr. Garcia. Yes, Congresswoman, I would be delighted to 
take a stab at that.
    First of all, my belief is that the United States is the 
most technological innovative country in the world.
    Ms. Norton. Well, you know what? That is the kind of hubris 
that could get us in trouble. Even if that is the case, there 
is no reason to believe, given the changes and given our allies 
and some who are not our allies, that that is, indeed, what we 
are up against.
    It seems to me, as security officials, your job is to 
assume the opposite, to assume that some other country, perhaps 
not the most secure, for that matter, some other investor, 
could get ahead of us, at least temporarily.
    Would you give us at least that in the security area?
    Mr. Garcia. Absolutely. And my next point was to be that 
while we are technologically innovative, so, too, in the world 
of cybersecurity, are our adversaries.
    We are acutely aware that there are increasing levels of 
sophistication among the adversaries as it pertains to the 
ability to exploit vulnerabilities in our communications and 
cyber networks.
    So we are constantly--it is, in fact, a technological chess 
game. For every innovation that we have to better secure our 
networks, the hackers and other adversaries find ways to 
exploit--
    Ms. Norton. See, how don't see you how you monitor that 
kind of stuff. Hackers, changes that are legitimate and that 
may be trade secrets, I think--
    Mr. Garcia. We are constantly monitoring networks for 
anomalous activity and analyzing what types of vulnerabilities 
are being exploited with what attacks, but I hasten to add that 
the issue of cyber and communications security is not just a 
technological one.
    We can have the best technology in place, but if we don't 
have appropriate systems and appropriate training of the people 
using those systems, then we are not going to really be truly 
secure.
    Cybersecurity is really about three things: It is about 
technology, it is about people, and it is about process. And in 
the CFIUS process, we are looking not only at the technological 
vulnerabilities, but some of the basic questions we ask are, in 
this particular acquisition, does the acquiring or the acquired 
company have good cybersecurity policies in place?
    Do they have a person who is in charge of implementing and 
enforcing those cybersecurity policies? Are there sufficient 
controls on access to the systems and on access to the data? Is 
there good personnel security? Does the company or companies 
have good background checks on possible insiders who could do 
malicious attacks on the networks?
    What about the physical or environmental security 
surrounding a particular facility? What about employee 
training? Is everyone using the network fully aware of what 
they should and should not do in managing their information and 
their computer systems?
    Does the company have a good monitoring and incident 
response capability in the event something bad does happen? Do 
they have a disaster recovery business continuity process?
    Ms. Norton. So the major technological change that was not 
contemplated either in the CFIUS review or, for that matter, in 
the imagination, because that is where technology is going, and 
is there some way in which that would be either be detected or 
reported to you?
    Mr. Garcia. We are constantly monitoring changes in 
technology and working with the private sector to identify the 
kinds of vulnerabilities that can--
    Ms. Norton. So when somebody hacks into a system, would you 
know that?
    Mr. Garcia. Yes. In my organization is an operational 
strike team, called the USCERT, the computer emergency 
readiness team. This is a group of technical professionals who 
have a network of outreach, incident response, situational 
awareness capabilities with other federal agencies, with other 
private sector operational capabilities, federal, state, local, 
and international partners.
    So we are constantly, in real time, monitoring all of the 
activity, as much as the activity as we can on networks and--
    Ms. Norton. I appreciate your answer. Could I just ask 
whether or not, Ms. Barr--since GAO has had an opportunity to 
look at this system? If she could just respond.
    Ms. Jackson Lee. Answer the gentlelady's question briefly.
    Ms. Calvaresi-Barr. Yes. I would be happy to respond. I am 
not a cybersecurity expert.
    We reviewed the CFIUS process. I will tell you that the 
cases that we looked at, now rather dated, though, 1995 running 
through 2004, we did find instances where there were concerns 
raised about purchases of Internet backbone companies.
    This predated a lot of DHS's involvement, because they 
weren't involved in those cases at the time. But I can tell you 
that some of those foreign acquisitions did pose a threat, one 
that didn't always get addressed to the satisfaction of other 
members of the committee or mitigated.
    But I will note that I think the addition of DHS to the 
CFIUS committee has brought a new vigorous look in that area.
    Ms. Norton. I want to thank you again, Madam Chair. And I 
do want to say that I think this area deserves very special 
oversight just because we are all talking about what we don't 
know anything about.
    It is the unknown that concerns me and I appreciate what is 
being done to close those concerns. And I appreciate it, again.
    Ms. Jackson Lee. Well, the gentlelady from the District of 
Columbia probably has firsthand knowledge, as the gentlelady 
from New York, on what terrorism can do to a community and, 
certainly, I believe these questions are valuable and 
important.
    I am going to ask a few more questions in a second round 
and I respect my members, but my preface to this is this is the 
beginning of a series of hearings because we believe in the 
cruciality of vigorous oversight.
    Ms. Calvaresi-Barr, we may be posing to GAO a study after 
the fact, which is to assess CFIUS with DHS engagement and 
involvement.
    The three secretaries--and, Mr. Garcia, I am going to pose 
a question to you, because I believe that there is such a nexus 
in the knowledge which most Americans probably would not know 
that 80 to 90 percent of critical infrastructure is in private 
hands.
    They also might not understand that there is a question of 
whether or not investment should also be equated to 
acquisition. And I will be raising that question with Mr. 
Baker, because there are entities where there is an operational 
factor, where there is a 70-or 80-year lease and the lease is 
paid up front.
    There are questions that we have not, I think, asked or 
answered.
    I would also argue whether revenue and buying and selling 
is more important than the security of America. And before this 
time, as Ms. Clarke has indicated, we are cities of commerce. 
We compete to be cities of commerce. We compete to account, 
through local officials and others, we account for or seek 
bragging rights of how much foreign investors we can secure for 
our own community, to sometimes the disadvantage of our own 
citizens who live here that we are willing to, for example, 
sell tow ropes and lease them up front--when I say ``sell 
them,'' in a leasing procedure.
    And having experienced not a manmade disaster, but a 
natural disaster, right after Katrina, when Rita panicked the 
Gulf region and we saw thousands upon thousands, Colonel 
Stephan, of individuals trying to escape by way of cars.
    If, by some chance, the foreign operator that road had 
another idea, another scheme, another method of traveling on 
that road or we don't want to alter or participate in your 
evacuation process, and that is for a natural disaster, then 
are we yielding to the buck of selling off roads and bridges, 
which I believe, under the present scheme of things, don't get 
covered by CFIUS?
    And I would imagine Mr. Garcia will say some aspects of 
what he does and I am going to pose this first question, Mr. 
Garcia, because you are crucial. I am thinking of companies 
that are sending data from one foreign site into the United 
States.
    Again, that may be questionable whether CFIUS has some role 
in determining whether that transaction is breaching any 
security, but it is using a very important aspect of critical 
infrastructure.
    So I would like to ask a question that, as you have stated, 
the emerging threats to our infrastructure arising from 
cyberspace pose an interesting problem to contend with.
    Can you please comment on how you see the CFIUS process 
evolving, especially software manufacturing and how it could 
move to offshore locations, whereby malicious code could be 
installed and do you have any suggestions for how to address 
these concerns?
    Mr. Garcia?
    Mr. Garcia. Yes, Madam Chairwoman, an excellent question.
    The issue you refer to we call the globalization of 
information technology and the IT sector is extremely 
globalized in terms of services, management, supply chain.
    Recently, an interagency committee prepared a review of the 
globalization of IT and the extent to which there are 
vulnerabilities in a global supply chain in which, as you 
suggest, malicious code can be inserted into software that is 
developed overseas.
    And we are looking at that closely and talking to the 
software industry, understanding that what is paramount is 
exactly how does a software company go about managing the 
development of software in a secure way, regardless of where 
the software is developed.
    Malicious code can be inserted anywhere by anyone along the 
development supply chain.
    So what is of most importance is working with the industry 
to devise best practices for secure development of software and 
hardware systems that are being used in our critical 
infrastructure.
    Ms. Jackson Lee. I think there are many scenarios. Of 
course, we don't want to telegraph of provide incentives to 
terrorists, but even the question of foreign investment by the 
United States, United States companies, and they then have to 
communicate back to the home office or the home office has to 
communicate back to them in a foreign site, which then some 
malicious code may undermine, for example, oil transactions or 
natural resource needs, water needs.
    Again, this, I believe, points out, from my perspective, 
that the security of America is far more important, though we 
must balance it with the making of a buck.
    And my concern is or my question is, and let me have 
Colonel Stephan in it, but let me let you finish, I am really 
contemplating of a more vigorous role for DHS, Secretary Baker, 
in this process.
    Secretary Garcia?
    Mr. Garcia. Yes, ma'am. We 100 percent agree. The most 
important priority for the Department of Homeland Security is 
the homeland security, regardless of who benefits from an 
investment.
    We look very closely at both the communications and cyber 
infrastructures as subjects of acquisition, but also how those 
infrastructures can be used against other physical 
infrastructures.
    One of my organizations--
    Ms. Jackson Lee. Do you believe we should be vigorously 
involved in this process?
    Mr. Garcia. Yes, ma'am. One of my organizations is the 
national communications system, which is responsible for 
ensuring the availability of our communications infrastructure 
in times of national emergency, that our government decision-
makers actually have an ability to communicate in the event of 
a national emergency.
    To the extent that any acquisition, foreign acquisition of 
telecommunications infrastructure would, by our analysis, 
threaten our ability to have that communication in the event of 
a national disaster of any sort, we would take the appropriate 
steps to ensure that controls are put in place or not to permit 
at all.
    Ms. Jackson Lee. Colonel Stephan, can you explain and give 
an example of how your office works with Secretary Garcia's 
office to address and mitigate physical and cyber-related 
threats to infrastructure, including any recent example that is 
not classified?
    Colonel Stephan. Yes, ma'am. In the CFIUS process that is 
the subject of this hearing, again, my responsibility is 
coordinating the infrastructure analysis or analytical 
components--
    Ms. Jackson Lee. So you are the firefighter that jumps into 
the fire?
    Colonel Stephan. I am an integrator and coordinator and 
sometimes I get burned in the process.
    Ms. Jackson Lee. I don't want you to have that happen to 
you. But when you get the call, you have to move forward to 
make the analysis.
    Colonel Stephan. Yes, ma'am. We make the analysis and we 
call in, depending upon what the transaction involves, a cyber 
component, a component of the energy sector. I bring in the 
Department of Energy, the Department of Defense, the defense 
industrial base.
    So I am a coordinator and integrator of a very complex 
ballet across the United States for every one of these risk 
analysis pieces.
    We just completed a round of very important, I think, 
pioneer work in terms of the public-private sector partnership, 
in my world, infrastructure protection. We now have 17 sector-
specific plans that reflect the 17 infrastructure sectors 
designated in HSPD-7.
    My colleague here and his staff have the unenviable task of 
reviewing every single one of those plans to make sure that the 
cyber components specifically dealing with control, processes, 
mechanisms and protocols for physical infrastructures that have 
a tremendous cyber component to each and every one them, was 
thoroughly involved in the process of developing the cyber 
pieces of every chapter of those plans.
    So I think that would be a very positive example of some 
very comprehensive legwork that my partner, Assistant Secretary 
Garcia, and his team and some very valuable capability they 
added into the fight.
    So for our chemical plan, our nuclear energy sector plan, 
our energy sector plan, very large, his guys' eyes on every one 
of those individual prizes to make sure that the cybersecurity 
component was embedded inside those physical infrastructure--
    Ms. Jackson Lee. Colonel Stephan, we will be seeking copies 
of those plans and, frankly, you have laid out the agenda for 
this committee. We will, in fact, be looking at all of those 
sectors and so you will be hearing from this committee to 
secure those plans, as well.
    I know the time--let me try to quickly go to Ms. Calvaresi-
Barr and then to Mr. Baker. And I will let you finish, Mr. 
Garcia, because you may want to answer on how you coordinate 
with Colonel Stephan.
    But, Ms. Barr, I, frankly, believe that the DHS should be 
more vigorous in this process. I am not going to hide the 
concern that I have, because we are in a new day.
    And I believe you mentioned, as I looked at your four 
elements, we will be writing GAO, because we would like an 
after-the-fact assessment now that DHS is involved. We would 
like a more detailed overview of how is it working.
    But did I understand that a key enforcement provision was 
removed which might disallow the president from reopening? Was 
that your point or could you expand on how we might 
strengthen--I don't want to undermine the president's role in 
securing the homeland.
    And so if we don't have an enforcement provision, why don't 
you share with us how we can strengthen that?
    Ms. Calvaresi-Barr. Well, I think from some of the cases 
that we have looked at, as I said, in the past reviews that we 
had done, we had seen a couple of instances where certain 
member agencies had asked that language be inserted in the 
mitigation agreement that said, ``If you do not comply with the 
agreement set forth within, the president has the authority to 
reopen and re-look under Exxon-Florio,'' and we saw a number of 
cases in which that was a debate among CFIUS members.
    And in a few cases, allowing that provision in the 
agreement was struck. It didn't occur. I think we heard today 
that this is one of the views and certainly the positions that 
Homeland Security is bringing to the table to say that that 
helps strengthen and helps keep in place these agreements, the 
force of compliance with them, and it is a good thing to put in 
place.
    Again, we haven't looked at any new cases since our 2005 
work, but I think we heard today that we are seeing more 
instances in which the reopening of a case is being inserted in 
those mitigation agreements.
    That is something, again, we would have to look at if you 
asked us to do so.
    Ms. Jackson Lee. Well, I think the point that you are 
making is through administrative deliberation and shifting, 
decisions were made to eliminate that provision, which some of 
us might think that it is minimally a provision that provides 
the extra enhanced security and as industries and purchasers 
and others become more comfortable with our role, I would think 
that that should not be waived.
    And one could say if we are selling candy, what could 
happen, but I would suggest that the security, again, goes 
above and alongside of the traversing of commerce.
    For that reason, Secretary Baker, let me share with you a 
point of CFIUS that, frankly, I wonder whether we have 
considered.
    Investment, which, as I indicated to you, which Ms. Clarke 
has indicated to you, we compete against cities, each other, as 
to how much investment we can secure.
    One of the challenges that has occurred is that our states 
and local jurisdictions have begun to assess their revenue 
bases on how much investment they can get in selling off 
critical infrastructure, to the extent that roads are being 
sold, happily so.
    So if you have an investment that is a lease of 70 years, 
to my understanding, CFIUS does not assess whether or not that 
kind of transferring of operation, of control should have a 
review.
    That is investment. That is not acquisition.
    Would you care to speculate that it might be valuable to 
have some standards by which you could review that kind of 
investment?
    Mr. Baker. I would not necessarily rule out the idea that 
if the lease was for sufficiently long, that it would be the 
equivalent of an acquisition. And I agree with you that when 
roads and other infrastructure are privatized, the nature of 
the concern about how to protect homeland security changes, 
because you move from governmental control, which is often very 
concerned about risks of that sort, to private control, where 
the concerns are focused on making sure that the quarterly 
profit projections are met.
    And that simply changes the nature of the kinds of measures 
people are willing to take. I don't know that it is limited to 
foreign investment. And so one of the questions is, is this a 
broader question than simply looking at foreign investment?
    Ms. Jackson Lee. Well, clearly, this committee will look at 
a range of investments and certainly--and when I say that, we 
will look at critical infrastructure and how it is protected 
and what kind of security, if you will, plans are in place.
    So clearly that can be the case. This obviously is a 
committee hearing addressing the question of foreign ownership 
and we are moving forward because our next hearing will also 
include investment.
    But I think you raise a very valuable question and that is 
the question before this committee.
    Let me conclude with Mr. Garcia--thank you, Secretary--to 
simply let you answer the question I asked Colonel Stephan, how 
you are coordinating with his discipline and his area under 
Department of Homeland Security, between the two of you, and 
particularly as it relates to the question before this 
committee.
    Mr. Garcia. Exactly as he said. We have important 
integration with all of the 17 critical infrastructure sector-
specific plans.
    My organization was responsible for working with the 
private sector in producing the IT and the communications 
sector-specific plans, but we, as Secretary Stephan said, have 
had visibility and input into each of the other SSPs to ensure 
that there is a consistent level of attention to the 
cybersecurity dimension of all of the critical infrastructures.
    Ms. Jackson Lee. Thank you very much.
    And with that, let me yield to the gentlelady, for 5 
minutes, from New York.
    Thank you.
    Ms. Clarke. Madam Chair, thank you.
    I just wanted to get one more question in here, because 
this has to be something that I am sure each of you gives some 
scrutiny to.
    Once we enter into these agreements, is there a monitoring 
process, because you may be talking about an acquisition, you 
may be talking about a lease, but these are private entities 
that now have ownership and stake, that would detect 
corruption?
    An individual was now hired as part of this process of 
maybe managing a port or what have you, that becomes a 
corruptible element after the transaction has been done.
    Is there something that we do through CFIUS or any other 
means, through the agencies, Mr. Secretary, that would enable 
us to detect that in any real tangible way?
    Mr. Baker. Yes, there is. We have really pioneered in the 
use of audits, to go into companies long after they have signed 
these agreements to say, ``Let me see your training. Let me see 
how you are implementing this. What did you do in this 
circumstance?''
    We have the authority to do background checks on many of 
the employees or to require that they be done at the company's 
expense and any adverse information provided to us.
    So we actually have built a lot of controls into the 
follow-on process of making sure people live up to their 
promises.
    Ms. Clarke. And then, finally, in the initial stage, where 
you do your 30-day investigation, is that part of the due 
diligence, as well, in terms of identifying personnel or 
individuals who may have some shady dealings?
    And knowing that it is a 30-day process, with an 
opportunity to extend to 45 days, do you feel that this is an 
adequate amount of time for all of the investigations or would 
you recommend a different timeframe?
    Mr. Baker. Yes. In terms of the timeframe, it often is not 
enough time. Frequently, it is. Let me first address your first 
question.
    Yes. We ask the intelligence community, and that would 
include law enforcement, to check or any adverse information on 
any of the people that are critical to the transaction and when 
we find adverse action, we will usually try to address it in 
the mitigation agreement or simply by saying no to the 
transaction.
    In terms of time, it sometimes is not enough. This is why 
we ask companies to come in early and tell us about the 
transaction. If they don't, it certainly counts against them, 
in our estimation, when we are evaluating the 30-day clock.
    We can always ask the company to withdraw the petition and 
to re-file it after we have worked out the issues between us.
    We are willing to do that and we have done that fairly 
often. That gives us the flexibility that we need.
    So we have not generally supported extending the deadlines 
for fear that if you give a government agency 45 days to make a 
decision, they will take 44 at least. And so just extending the 
deadline will delay everyone and we didn't want to do that.
    Ms. Clarke. Madam Chair, thank you very much.
    Ms. Jackson Lee. We thank you for your very important 
contributions.
    Let me just close with a question, Mr. Secretary.
    I indicated that we were going to ask GAO to do a fresh 
study, but you noted the very, I think, instructive criticisms 
or analysis that was already made on the CFIUS process.
    Again, I said I am of the position that DHS needs to be 
more vigorous.
    You know, we have heard this massive debate about security, 
border security. I always believe that what we missed out in 9/
11 is that we were not offensive or we were not able to fend 
off before the terrorists arrived here on this soil.
    We can always stand back after they have arrived, maybe we 
would be even lucky enough to prevent it as they arrive or as 
they begin to plan.
    But wouldn't it be better to be away ahead of the game?
    And so the criticisms that have been offered or the 
analysis that has been offered by GAO I think maybe warrant 
some legislative fixes.
    One of them, however, is an annual report and I would like, 
for the record, your assessment on that. And you might also 
give me your assessment on the mitigation aspect, giving the 
president the continuous authority to reopen, not a waivable 
authority, which is a decision made by the CFIUS committee, 
``We will decide to keep it in or we will not.''
    I, frankly, believe that it should not be left up to 
chance.
    Secretary Baker?
    Mr. Baker. Very good. Let me address the second one first.
    On authority to reopen transactions, it has some appeal, I 
understand, but it would raise real questions among investors 
about whether, if they made an investment in the United States 
and the climate changed in 10 years, their deals might be 
overturned.
    We do have the authority, if they lie to us, if they leave 
out a fact that they know is important to us and they just 
don't tell us, in the CFIUS process, we can reopen the 
transaction and we think that gives us a lot of authority, the 
ability to say ``You violated the agreement which led us to 
approve this deal. So we are reopening'' is also one which we 
use fairly carefully, but which has stood us in good stead on 
very important transactions.
    And so I think the value of a continuing permanent 
authority to reopen transactions is not offset by the risks to 
investments.
    As far as GAO's report, I thought it was a very thoughtful, 
detailed report. Many of those recommendations are things that 
we are now doing one way or the other.
    An annual report raises some concerns about confidentiality 
of these transactions. Investors do not want their deals and 
the doubts and concerns and negotiations that went into them in 
the newspapers often.
    We would have to be very careful about how a report like 
that would end up being used. But we are certainly not opposed 
to giving this committee as much information about CFIUS as you 
would like.
    Ms. Jackson Lee. Well, let me thank all of the witnesses. I 
would simply suggest to you that having been part, in my past 
life as a lawyer, practicing in a number of areas, been looking 
over many, many tables with document scattered and wondering 
whether the deal legally was going to be consummated.
    I understand what apprehension these proponents or 
participants in the transaction may believe, but clarification, 
protecting the kind of data that would be in the report, I 
think, frankly, information is a score of points when it comes 
to protecting the homeland.
    And, frankly, I would like to see some way of managing that 
in a way that does not do damage to the commerce and the 
comings and goings of business here in the United States.
    Again, this hearing started with the premise that if a 
horrific manmade tragedy were to occur, I think that a 
combination of Department of Homeland Security and this 
committee, more than any others, would be asked the question, 
``Why,'' and that means it is crucial that we continue to have 
vigorous oversight.
    You have given us this morning a very, very good roadmap to 
begin this journey of reviewing critical infrastructure across 
American and foreign ownership and investments, as well as, 
generally speaking, the critical infrastructure, which, 
Secretary Baker, you said 80 to 90 percent is in the private 
sector.
    Good news, but yet we have a responsibility to secure the 
homeland.
    I would like to thank the witnesses for their valuable 
testimony and the members for their questions.
    The members of the subcommittee may have additional 
questions for the witnesses. We will ask you to respond 
expeditiously in writing to those questions, and we will have 
several.
    And hearing no further business, this committee will stand 
adjourned.
    As I also thank the ranking member, Mr. Lungren, who had 
another meeting, and the members of this committee for their 
presence here today in this very important challenge.
    Thank you. The meeting is adjourned.
    [Whereupon, at 11:49 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
